<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                        THURSDAY, MARCH 15, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:35 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson and Hoeven.

                    GOVERNMENT ACCOUNTABILITY OFFICE

STATEMENT OF GENE L. DODARO, COMPTROLLER GENERAL

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. I know that my friend and co-chair, Ranking 
Member Senator Hoeven, is on his way. I think I just got 
through the reporters a little faster than he did.
    You know, we complain when there are no votes, when we're 
not doing anything. And when votes are scheduled, they get in 
the way of the rest of our business. So it's one of those 
things. You can't win when you're losing.
    But I appreciate everybody being here, and we'll wait just 
a few minutes, because I know my ranking member is on his way.
    Since both Senator Hoeven and I have already had the 
pleasure and the opportunity to visit with our witnesses today, 
and I know there won't be any surprises, maybe I can start with 
some opening remarks. And then when Senator Hoeven arrives, we 
will give him an opportunity as well.
    The subcommittee will come to order. And good afternoon, 
everyone, and welcome. We meet this afternoon to take testimony 
on the fiscal year 2013 budget request for the Government 
Accountability Office (GAO), the Government Printing Office 
(GPO), and the Congressional Budget Office (CBO).
    I want to welcome our witnesses today. We've had the 
pleasure and the opportunity to visit privately earlier. And so 
we now have this opportunity to do so publicly as well: Gene L. 
Dodaro, the Comptroller General; Davita Vance-Cooks, who is 
Acting Public Printer; and Douglas W. Elmendorf, Ph.D., 
Director of the CBO.
    This is our second hearing of the year and on the fiscal 
year 2013 budget requests for the agencies of the legislative 
branch. I'd like to start off today by commending our 
witnesses, particularly the GPO who submitted a budget request 
reflecting a freeze at the fiscal year 2012 enacted level and 
for submitting budget requests that reflect the tight fiscal 
constraints under which the Federal Government must continue to 
operate well into the future.
    Unfortunately, given the budgetary battles ahead of us, any 
growth in budgets very well may be too much growth. But we need 
to hear from each of our witnesses as to what the actual needs 
are for any increased funding for fiscal year 2013, so that 
we're fully informed when the tough funding decisions are made 
later this year.
    And, of course, with that upbeat message, we look forward 
to hearing from each of you this afternoon and to discussing 
your budget requests.
    Mr. Dodaro, this year GAO is requesting a total of $526.2 
million in appropriated funding, an increase of $15 million or 
2.9 percent more than the fiscal year 2012 enacted level. I 
know that still puts you under fiscal year 2010.
    This increased funding level would support an additional 64 
full-time equivalents (FTEs) more than the current level of 
2,982, which is the lowest number of FTEs since the 1930s.
    Is that accurate? I do not remember what you told me in the 
office.
    And I look forward to hearing the specifics of this request 
in light of the requested increase in FTEs, immediately 
following participation in the Voluntary Separation Initiative 
Payment (VSIP) program, and particularly given that the Library 
of Congress (LOC) and the GPO also participated in the VSIP 
program, but are not asking for FTE increases in fiscal year 
2013.
    Ms. Vance-Cooks, this is your first time appearing before 
this subcommittee, so you don't have to be nervous or anything 
like that. And I know you have some very big shoes to fill 
since the departure of Mr. Boarman. He served GPO with 
distinction, particularly given the tight fiscal restraints, 
and we appreciate his service.
    GPO continues to serve its citizens with efficiency and 
excellence, no matter how few resources we throw your way. And 
GPO has set the standard that others need to follow when it 
comes to finding savings and implementing cost-cutting 
initiatives, even though some of the challenges may be 
different in the agencies. But we hope that you'll continue to 
lead by example as we work toward funding fiscal year 2013. And 
congratulations on your appointment, and welcome.
    GPO is requesting a total of $126.25 million, the same 
level of funding as provided in fiscal year 2012. I understand 
that in fiscal year 2013, GPO has to undertake printing a new 
edition of the United States Code, in addition to all of the 
other regularly scheduled printing activities, yet you're not 
asking for increased funding to pay for this additional 
requirement. And we understand and appreciate very much your 
holding that line.
    Dr. Elmendorf, it's always good to see you. CBO is 
requesting $44.6 million in fiscal year 2013, an increase of 
roughly $850,000, or 1.9 percent more than the current year. I 
look forward to discussing the particulars of your budget in 
just a few minutes.

                           PREPARED STATEMENT

    When my colleague gets here, we'll ask for his opening 
remarks. But in the meantime, I'd like to call on Mr. Dodaro 
for your opening statement, followed by Ms. Vance-Cooks and Dr. 
Elmendorf.
    And as we always try to be careful in the amount of time 
that we put in for opening statements, if you could hold your 
time to somewhere around 5 minutes, that would be desirable.
    [The statement follows:]
                Prepared Statement of Senator Ben Nelson
    Good afternoon everyone and welcome.
    We meet this afternoon to take testimony on the fiscal year 2013 
budget requests for the Government Accountability Office (GAO); the 
Government Printing Office (GPO); and the Congressional Budget Office 
(CBO).
    I want to welcome our witnesses today:
  --Gene L. Dodaro, Comptroller General;
  --Davita Vance-Cooks, Acting Public Printer; and
  --Douglas W. Elmendorf, Ph.D., Director of the CBO.
    I want to also welcome my Ranking Member Senator Hoeven.
    This is our second hearing of the year on the fiscal year 2013 
budget requests for the agencies of the legislative branch. I would 
like to start off by commending our witnesses today--particularly GPO 
who submitted a budget request reflecting a freeze at the fiscal year 
2012 enacted level--for submitting budget requests that reflect the 
tight fiscal constraints under which the Federal Government must 
continue to operate. Unfortunately, given the budgetary battles ahead 
of us, any growth in budgets very well may be too much growth. However, 
we should certainly hear from our witnesses as to what their needs for 
increased funding are for fiscal year 2013 so we are fully informed 
when tough funding decisions are made later this year. And with that 
upbeat message, we look forward to hearing from each of you this 
afternoon and to discussing your budget requests.
    Mr. Dodaro, this year GAO is requesting a total of $526.2 million 
in appropriated funding--an increase of $15 million, or 2.9 percent, 
more than the fiscal year 2012 enacted level. This increased funding 
level would support an additional 64 full-time equivalents (FTE); more 
than the current level of 2,982. I look forward to hearing the 
specifics of this request--specifically in light of the requested 
increase in FTEs immediately following participation in the Voluntary 
Separation Incentive Payment (VSIP) program--particularly given that 
the Library of Congress and GPO also participated in the VSIP program, 
but are not asking for FTE increases in fiscal year 2013.
    Ms. Vance-Cooks, this is your first time appearing before this 
subcommittee, and you have some very big shoes to fill since the 
departure of Mr. Boarman. He served GPO with distinction, particularly 
given the tight fiscal constraints. GPO continues to serve its clients 
with efficiency and excellence no matter how few resources we throw 
your way. GPO has set the standard that others should follow when it 
comes to finding savings and implementing cost-cutting initiatives, and 
we hope you will continue to lead by example as we work toward funding 
fiscal year 2013. Congratulations on your appointment and welcome.
    GPO is requesting a total of $126.25 million, the same level of 
funding as provided in fiscal year 2012. I also understand that in 
fiscal year 2013, GPO has to undertake printing a new edition of the 
United States Code in addition to all of the other regularly scheduled 
printing activities. Yet, you are not asking for increased funding to 
pay for this additional requirement.
    Dr. Elmendorf, it's good to see you again. CBO is requesting $44.6 
million in fiscal year 2013, an increase of roughly $850,000 or 1.9 
percent more than the current year. I look forward to discussing the 
particulars of your budget in just a few minutes.

    Senator Nelson. Mr. Dodaro.

                  SUMMARY STATEMENT OF GENE L. DODARO

    Mr. Dodaro. Thank you very much, Mr. Chairman. It's a 
pleasure to be here today.
    I'd also like to take this occasion, on the announcement of 
your retirement, to publicly thank you for the support that 
you've given GAO over the years in this position and other 
positions. It's been a pleasure to work with you, and I extend 
to you my best wishes.
    Senator Nelson. Thank you very much. I appreciate that.
    Mr. Dodaro. With regard to our request, as the auditor of 
the financial statements of the Federal Government, we're 
acutely aware of the seriousness of the Federal Government's 
financial situation, both in the short term and the long term. 
And accordingly, we've been working with reduced funding levels 
and working hard to do our part.

          <greek-l>GAO deg.MANAGING WITH CONSTRAINED RESOURCES

    Over this past year, we've absorbed a reduction of $45 
million, or more than 8 percent, in our appropriation. We've 
done it primarily through two ways.
    One is to drive down the administrative costs of our 
operations, and that's occurred to the tune of more than 18 
percent. We've deferred and eliminated some investments. We've 
reduced the amount of contractor support in a number of 
different areas. And we've taken a number of other initiatives 
to move in that direction.
    Second, because more than 80 percent of our costs are 
personnel costs, we've had to absorb that reduction by not 
replacing people. In addition to attrition about 40 or so 
people left this past year due to the voluntary early 
retirement initiative. This was necessary in the short run in 
order to avoid furloughs or layoffs of other people.
    I was concerned about furloughs and our ability to support 
the Congress. Our goal was to maximize our support to the 
Congress and minimize the effect on GAO people. We achieved 
that, I believe, through this year.

       <greek-l>GAO deg.RESTORING CAPACITY TO SERVE THE CONGRESS

    Unfortunately, in doing that, our staffing level is now, as 
you mentioned, at the lowest level since 1935. We will have 
less than 3,000 people by the end of this year. The staffing 
request is with an eye toward building the future capacity of 
GAO in order to have the knowledgeable and skilled workforce 
that we need in order to serve the Congress, including every 
standing committee and about 70 percent of the subcommittees.
    There are a lot of difficult issues ahead. We, like a lot 
of Federal agencies and people in the private sector, are going 
to be affected by the retirement of the baby boom generation. 
Forty percent of our senior executives, for example, are 
already eligible to retire. We've noticed an uptick in 
retirements over the past couple of years.
    So, we need to get prepared for the future. That's why 
we're asking for a 2.9-percent increase. It's primarily for 
staffing and to build the workforce of the future for GAO to 
serve the Congress and the country.
    We think that the Congress needs our services, particularly 
now in light of the serious financial situation. The investment 
in GAO pays handsome dividends.
    In the last year, for example, we returned financial 
benefits of $81 for every $1 invested in GAO. We think that 
this investment in the GAO is prudent. It will pay dividends in 
the short run and the long term, and it will better position 
GAO to provide the support to the Congress.
    Our mission and the reason we exist is to support the 
Congress in carrying out its constitutional responsibilities. 
Given the fiscal, security, and economic challenges the 
Congress faces a wide array of difficult decisions going 
forward. I believe GAO can make even more important 
contributions to helping the Congress make informed decisions 
to help reduce the costs of the Federal Government and enhance 
revenues.
    We had a chance to talk a little bit about the tax gap, 
which now stands, in the latest Internal Revenue Service 
estimate, at $385 billion. According to last year's estimate, 
there were about $115 billion in improper payments made. In 
addition, there are a number of other areas where we can make 
greater contributions to help the Congress not only deal with 
difficult decisions, but make our Government more efficient and 
more effective and better serve the American public.

                           PREPARED STATEMENT

    I know you'll give careful consideration, as always, to our 
request. I appreciate the opportunity to be here today and look 
forward to answering questions at the appropriate time. Thank 
you.
    [The statement follows:]
                  Prepared Statement of Gene L. Dodaro
    Mr. Chairman, Ranking Member Hoeven, and members of the 
subcommittee: I appreciate the opportunity to be here today to discuss 
the Government Accountability Office's (GAO) budget request for fiscal 
year 2013. I want to thank the subcommittee for its continued support 
of GAO. We very much appreciate the confidence you have shown in our 
efforts to help support the Congress in carrying out its constitutional 
responsibilities and to help improve Government performance and 
accountability for the benefit of the American people.
    GAO is requesting an appropriation of $526.2 million for fiscal 
year 2013 to support a staffing level of 3,100. This funding level 
represents a modest increase of 2.9-percent more than fiscal year 2012, 
and is 5.4-percent less than our fiscal year 2010 level. The majority 
of the requested increase represents the first step in rebuilding our 
staff capacity to a level that will enable us to optimize the benefits 
we yield for the Congress and the Nation.
    We have carefully reviewed every aspect of our operations from a 
zero base to identify opportunities to reduce costs without sacrificing 
the quality of our work and preserving our ability to assist the 
Congress in addressing the most important priorities facing the Nation. 
However, given that staff costs now represent about 81 percent of our 
budget and the deep reductions already taken in our infrastructure 
programs, reducing the size of our workforce could not be avoided. By 
the end of fiscal year 2012, for the first time in more than 75 years, 
GAO's staffing level will drop to less than 3,000 staff, resulting in a 
net reduction of 11 percent in our staff capacity, or 365 people, in 
only a 2-year period.
    Given the current size and scope of the Federal Government and the 
demand for our services, this staffing reduction will result in missed 
opportunities for us to identify ways to save money and generate 
revenue at a time when the country needs us most. I am also very 
concerned about maintaining our highly skilled workforce by both 
replacing departing staff and adding more highly skilled talent to 
address succession planning challenges and skill gaps. The cost to 
restore our staff capacity would be more than offset by billions of 
dollars in savings and other efficiencies resulting from GAO's work.
    Through productive discussions with our managers, Union, Employee 
Advisory Council, Diversity Advisory Council, and our staff, GAO has 
significantly reduced spending throughout the agency in areas ranging 
from human resources to travel to information technology (IT) to 
achieve a $45 million or 8.1-percent funding reduction since fiscal 
year 2010. But, now we seek your support to begin a multiyear effort to 
rebuild our workforce to ultimately achieve a target full-time 
equivalent (FTE) staffing level of 3,250. We believe this is the 
optimal level within the current environment to most effectively serve 
the Congress and produce a high return on the investment in GAO. It 
would be our goal to return to this FTE staffing level in future year 
funding requests.
    GAO is unique in our audit and evaluation capacity to support the 
Congress by performing original research, providing technical 
assistance, and conducting analyses to help the Congress make informed 
decisions across all segments of the Federal budget resulting in 
tangible results and enhanced oversight needed to address the 
seriousness of the Government's fiscal condition. In order for us to be 
most effective, GAO needs to be of a size commensurate with the current 
and emerging challenges facing the Federal Government and the 
seriousness of its fiscal outlook. We are extremely limited in our 
ability to target additional reductions without adversely impacting our 
capacity to support the Congress in reducing costs and improving 
Government during this critical period.
    <greek-l>gao deg.the government accountability office supports 
    congressional decisionmaking, saves resources and helps improve 
                               government
    GAO's work directly contributes to improvements in a broad array of 
Federal programs affecting Americans everywhere and remains one of the 
best investments across the Federal Government. With this 
subcommittee's support, in fiscal year 2011 GAO provided assistance to 
every standing congressional committee and about 70 percent of their 
subcommittees. GAO issues hundreds of products annually in response to 
congressional requests and mandates. Actions taken related to our 
findings and recommendations yielded significant results across the 
Government, including financial benefits of $45.7 billion to reduce 
Government expenditures, reallocate funds to more productive areas, or 
increase revenues. These benefits produced a return on investment of 
$81 for every $1 invested in GAO.
    In fiscal year 2011, our work also contributed to more than 1,300 
improvements in Government operations that helped to change laws, 
improve services to the public, and promote sound management throughout 
Government. About 32 percent of these benefits were in the area of 
public safety and security, such as homeland security and justice 
programs and critical technologies. Another 40 percent were related to 
improvements in business processes and management, such as improved 
oversight of Federal oil and gas resources and detection of fraud, 
waste, and abuse.\1\
---------------------------------------------------------------------------
    \1\ A list of selected issues on which the Government 
Accountability Office assisted the Nation in fiscal year 2011 is 
included as Appendix I.
---------------------------------------------------------------------------
    GAO senior officials testified 174 times before the Congress on an 
array of complex issues including military and veterans disability 
systems, U.S. Postal Service fiscal sustainability, defense/weapons 
systems, and Medicare and Medicaid fraud, waste, and abuse.\2\ Fifty-
seven of these hearings were related to high-risk areas and programs 
highlighted in GAO's biennial high-risk report.\3\ GAO's high-risk 
program calls attention to opportunities for cost savings and 
improvements in Federal agency and program management that offer the 
potential to save billions of dollars, dramatically improve service to 
the public, and strengthen confidence and trust in the performance and 
accountability of the U.S. Government. In fiscal year 2011, our work 
also included several products mandated under the Dodd-Frank Wall 
Street Reform Act on mortgages, securities markets, financial 
institutions, the Federal Reserve, and consumer protection. 
Additionally, our work included many other products related to 
healthcare related reforms.
---------------------------------------------------------------------------
    \2\ A list of selected issues on which the Government 
Accountability Office staff testified before the Congress during fiscal 
year 2011 is included as Appendix II.
    \3\ Our High-Risk List is included in Appendix III.
---------------------------------------------------------------------------
    As the Congress and the administration debate ways to improve the 
Federal Government's long-term fiscal outlook, our mission becomes ever 
more critical to help identify billions of dollars in cost-saving 
opportunities to tighten Federal budgets and identify revenue-
enhancement opportunities. GAO seeks both to help position the 
Government to better manage risks that could compromise the Nation's 
security, health, and solvency, and to identify opportunities for 
managing Government resources wisely for a more sustainable future. GAO 
will continue to provide high-quality, high-value, and independent 
support to the Congress in ways that generate material benefits to the 
Nation.
    GAO's strategic plan for serving the Congress and the Nation, 2010-
2015, highlights the broad scope of our efforts to help the institution 
of the Congress respond to domestic and international challenges,\4\ 
such as:
---------------------------------------------------------------------------
    \4\ Our Strategic Plan Framework is included in Appendix IV.
---------------------------------------------------------------------------
  --addressing current and emerging challenges to the well-being and 
        financial security of the American people;
  --responding to changing security threats and the challenges of 
        global interdependence;
  --helping transform the Federal Government to address national 
        challenges; and
  --maximizing the value of GAO by enabling quality, timely service to 
        the Congress and being a leading practices Federal agency.
       <greek-l>gao deg.actions taken to reduce operational costs
    Since fiscal year 2010, GAO has significantly reduced spending 
throughout the agency. Our fiscal year 2012 funding level is $45 
million or 8.1-percent less than fiscal year 2010. We streamlined 
operations and reduced costs through staffing reductions, voluntary 
retirements, voluntary separation incentives, and extremely limited 
hiring to only replace critical vacancies; reducing staff retention 
programs, such as student loan repayments and incentive awards; and 
reducing or deferring investments in IT, facilities, and other support 
services. Since fiscal year 2010, we have reduced engagement support 
costs, such as travel and external specialized expertise by more than 
20 percent, and reduced infrastructure support costs, such as IT and 
administrative support services by more than 18 percent.
    In addition, we are continuing to explore other opportunities to 
reduce our infrastructure costs, provide staff more flexibility and 
increase our effectiveness and efficiency, such as streamlining our 
engagement-management process; expanding our telework policies; 
reducing our physical footprint both in headquarters and in our field 
offices; exploring office-sharing; expanding our video-conference 
capability; and attracting an additional tenant in headquarters to 
increase revenue. While we may only see limited financial benefits in 
fiscal year 2012, each of these initiatives provides the opportunity to 
generate significant long-term financial benefits to GAO that will help 
reduce our operating costs and enable us to maximize our effectiveness. 
For example, we have identified 31 recommendations for engagement-
management improvements; some of which can be implemented quickly, 
while others require additional study to determine the best approach 
for implementation. When implemented, these recommendations will allow 
us to streamline and standardize our processes to achieve greater 
efficiency in our work without sacrificing quality, increase our 
responsiveness to the Congress, and deliver products to the Congress 
and the public more effectively and efficiently.
    We are also consulting continuously with congressional committees 
to assure that our work is focused on their highest priorities. 
Additionally, we continue to work with committees to amend or repeal 
statutory mandates for GAO studies that have outlived their usefulness 
or do not represent the best use of GAO's resources given current 
congressional priorities.
  <greek-l>gao deg.fiscal year 2013 budget request would help restore 
                           essential capacity
    Our budget request seeks to partially restore funding to allow GAO 
to begin a multiyear effort to rebuild our workforce by hiring to 
replace departing staff to enable us to optimize the benefits we yield 
for the Congress and the Nation, bolster staff recruitment and 
retention programs, such as student loan repayments and incentive 
awards, and replace end-of-life technology to ensure our technology is 
current and remains on par with other Federal agencies.
    For the first time in more than 75 years, GAO's staffing level will 
drop to less than 3,000 in fiscal year 2012, resulting in a net 
reduction of 11 percent in our staff capacity in only a 2-year period. 
Further, we project losing an additional 190 people in fiscal year 2013 
based on historical trends. We also have a significant number of 
retirement eligible senior executive staff (about 40 percent), 
supervisory analysts (25 percent), and analysts (12 percent). We depend 
on a talented and diverse, high-performing, knowledge-based workforce 
to carry out our mission to support the Congress. This reduction in 
staff capacity is limiting our ability to support the Congress during 
this critical period when the unique insights that GAO provides are an 
essential element of congressional analysis and decisionmaking. It is 
imperative that we begin to replenish our workforce to both replace 
departing staff and add more highly skilled talent to address 
succession planning challenges and skill gaps. We have been and will 
continue to reach out to our congressional clients to ensure they help 
focus our work on the highest-priority areas to obtain the maximum 
benefit in this resource constrained environment.
    Our fiscal year 2013 budget request seeks to partially restore 
essential funding for staff recognition and benefits programs and 
critical investments eliminated or deferred due to budget constraints. 
Reductions in staff recognition and benefits programs jeopardize our 
ability to attract and retain staff when other organizations with whom 
we compete for human resources may offer these benefits. These tools 
are also essential to recognize and motivate our high-performing 
workforce. Moreover, all but the most critical investments in areas 
such as facilities and IT have been eliminated. Continued deferral of 
needed investments in our systems and building will ultimately diminish 
our productivity and effectiveness, likely lead to more costly repairs, 
and affect our ability to exchange data with other Federal entities.
    We are also requesting authority to use $24.3 million in offsetting 
collections from rental income and program and financial audits. In 
addition, we estimate about $4.7 million will be available from 
reimbursements of programs and financial audits to help offset our 
costs.
    If GAO's funding is reduced less than the requested level, 
additional reductions in our staffing level will be inevitable which 
would adversely affect our ability to produce results that can help 
deal with the Federal Government's fiscal challenges and provide 
timely, insightful analysis on congressional priorities and challenges 
facing the Nation. As a knowledge-based organization, about 81 percent 
of GAO's fiscal year 2013 budget is allocated for human capital costs--
a slight increase from the previous year as a result of mandatory cost 
increases, the proposed increase in staffing, and deep reductions made 
in agency operations and infrastructure. We are extremely limited in 
our ability to target additional reductions in infrastructure-support 
costs beyond what has already been taken in order to meet the basic 
operations of the agency.
     <greek-l>gao deg.positive results from external organizations
    In regard to our internal operations, in fiscal year 2011 we 
received a clean opinion on our system of quality control for both our 
financial and performance audits from an external peer review conducted 
by a team of auditors from our counterparts at national audit 
institutions, and received an unqualified opinion on our financial 
statements from independent auditors. The Association of Government 
Accountants awarded us its Certificate of Excellence in Accountability 
Reporting for our Fiscal Year 2010 Performance and Accountability 
Report. We also received a ``Best-in-Class'' award for a concise, well-
written, and highly readable ``Summary of GAO's Performance and 
Financial Information'' for fiscal year 2010.
    GAO was also once again recognized as one of the Best Places to 
Work. The annual survey conducted by the Partnership for Public Service 
identified GAO as number three in its rankings for all large 
organizations across the entire Federal Government. Washingtonian 
magazine selected GAO as one of the best places to work in the private 
and public sectors in Washington, DC, in its annual rankings.
                           concluding remarks
    Fiscal year 2011 was a very active and challenging time for GAO. We 
succeeded at performing our mission, responding to mandates, and 
accomplishing many of our goals while operating under budget and 
staffing constraints. We could not have achieved this level of 
performance without the outstanding efforts of our professional, 
diverse, and multidisciplinary staff. We also maintained our productive 
working relationship with the GAO Employees Organization, International 
Federation of Professional and Technical Engineers (IFPTE) which 
represents GAO's analyst staff and began implementing our first master 
collective bargaining agreement. On February 8, 2012, GAO's 
Administrative Professional and Support Staff voted in favor of having 
the IFPTE serve as their exclusive representative. GAO's Visual 
Communications Analysts and Lead Communications Analysts also voted to 
be included in the analysts' bargaining unit. In addition, we continue 
to work closely with the Employee Advisory Council and the Diversity 
Advisory Council on a range of issues.
    Fiscal years 2012 and 2013 bring more challenges with 
responsibilities to further assess and report on Government programs 
and financial regulatory reform efforts, among many other pressing 
issues. Our budget request has been carefully developed to represent 
the level of resources we need to continue effectively serving the 
important needs of the Congress by providing quality products in a 
timely fashion and to identify high opportunity areas for both 
eliminating waste as well as enhancing revenue across the Federal 
Government.
    I believe that you will find our budget request fiscally 
responsible and essential to ensure that we can maintain our capacity 
to assist the Congress and produce results for the American people. We 
remain committed to providing accurate, objective, nonpartisan, and 
constructive information to the Congress to help it conduct effective 
oversight and fulfill its constitutional responsibilities.
    Mr. Chairman, Ranking Member Hoeven, members of the subcommittee, 
this concludes my prepared statement. I appreciate, as always, your 
careful consideration of our submission and look forward to discussing 
our proposal with you.
 <greek-l>gao deg.appendix i: how the government accountability office 
                 assisted the nation, fiscal year 2011
Goal 1: Address Current and Emerging Challenges to the Well-Being and 
        Financial Security of the American People
    Identified savings of $3.7 billion by reducing unneeded payments to 
Medicare Advantage plans.
    Identified the need for the Department of Health and Human Services 
to finalize guidance on how antivirals would be used during a pandemic.
    Identified opportunities for cost savings and reduced risk to the 
Government in a series of reports on undefinitized contracts, use of 
blanket purchase agreements where discounts were not sought, and cost 
reimbursement contracts.
    Improved consistency and compatibility of healthcare associated 
infection data.
    Led the Social Security Administration to improve oversight of its 
Ticket-to-Work program.
    Identified opportunities to enhance investigation of online child 
pornography.
    Recommended ways to strengthen the Federal Reserve's management of 
emergency assistance to stabilize financial markets.
    Developed a series of assessments of emerging technologies with 
important implications for the Nation.
    Found regulatory weaknesses in Environmental Protection Agency's 
water-based lead testing and treatment program.
    Informed improvements in air passenger rights to compensation for 
mishandled baggage.
Goal 2: Respond to Changing Security Threats and the Challenges of 
        Global Interdependence
    Encouraged enhanced desktop computer security to protect sensitive 
information, which 22 Federal agencies implemented.
    Identified progress and remaining work to implement homeland 
security missions at the Department of Homeland Security 10 years after 
9/11.
    Led the Department of Homeland Security to scale back the flawed 
advanced radiation detector program--avoiding costs of $1.2 billion.
    Identified challenges and recommended improvements in the 
Department of Defense's expanding cybersecurity mission.
    Surfaced potential costs and risks of contract transition during 
drawdown from Iraq, resulting in benefits of $77.5 million.
    Led Department of Defense to restructure the Joint Strike Fighter 
program--Department of Defense's most costly and ambitious acquisition.
    Improved monitoring and evaluation of the Departments of State and 
Labor and United States Agency for International Development projects 
to combat human trafficking.
Goal 3: Help Transform the Federal Government To Address National 
        Challenges
    Provided timely information on the debt limit and budget controls 
to help address the long-term fiscal challenge.
    Helped eliminate the Advanced Earned Income Tax Credit, avoiding 
$569 million in costs.
    Suggested that the Congress extend the statute of limitations for 
examinations involving offshore financial activity.
    Recommended that Office of Management and Budget establish 
realistic milestones for full implementation of the infrastructure 
needed to best use the electronic authentication capabilities of 
personal identify verification cards.
    Identified 227,700 tax delinquents receiving Federal benefits to 
explore ways to increase collection of unpaid taxes.
    Found ways to incorporate required data into Centers for Medicare 
and Medicaid systems to better detect improper payments.
    Issued updated Government auditing standards to reflect recent 
developments in the accountability profession.
    Recommended improvements to planning and implementation of Federal 
data center consolidation at 24 Federal agencies.

    Source: GAO.
 <greek-l>gao deg.appendix ii: selected testimony topics, fiscal year 
                                  2011
Goal 1: Address Current and Emerging Challenges to the Well-Being and 
        Financial Security of the American People
Safety of medical devices
Departments of Defense and Veterans Affairs Care Coordination Program
Department of Veterans Affairs prevention of sexual assaults
State oversight of private health insurance rates
Potential overlap and duplication in Government programs
Incapacitated adults
Federal workers' compensation
Military and veterans disability system
Oversight of Department of Defense tuition assistance program
Securities lending in 401(k) plans
Pension Benefit Guaranty Corporation management
Financial literacy
Mortgage foreclosures regulatory oversight
Oversight of residential appraisals
Troubled Asset Relief Program
Interior's major management challenges
Federal oil and gas restructuring
Improvements needed for safe drinking water
Food and agriculture emergency preparedness
Airport and Airway Trust Funds
Traffic and vehicle safety
Use of American Recovery and Reinvestment Act transportation funds
Unneeded owned and leased Federal facilities
Department of Veterans Affairs real property realignment
Needed U.S. Postal Service legislation
Goal 2: Respond to Changing Security Threats and the Challenges of 
        Global Interdependence
Department of Homeland Security 10 years after 9/11
Electronic employment eligibility verification
Aviation security behavior detection program
Maritime security U.S. counterpiracy action plan
Cross-border currency smuggling
Assessing national preparedness capabilities
Visa overstay enforcement
Combatting nuclear smuggling
Flood insurance reform
Efforts to address terrorist safe havens
Antidumping and countervailing duties
Diplomatic security training challenges
Department of Defense space acquisitions
Missile defense transparency and accountability
Department of Defense cost overruns
Joint Strike Fighter Program restructuring
Coast Guard Deepwater Program
Army's ground force modernization
Littoral combat ship acquisition strategies
Contract oversight of non-United States vendors in Afghanistan
Addressing urgent warfighter needs
Personnel security clearance process
Goal 3: Help Transform the Federal Government To Address National 
        Challenges
Oversight and accountability of Federal grants
Reducing improper payments
Fiscal year 2010 U.S. Government financial statements
Department of Defense financial management challenges
Medicare and Medicaid fraud, waste, and abuse
Fraud prevention in Service-disabled veteran-owned small business 
program
Fraud prevention in the Small Business Administration's 8(a) program
Tax delinquent American Recovery and Reinvestment Act contractors
Protecting Federal information systems
Information technology investment oversight
Department of Veterans Affairs information technology
Federal information technology spending
Unfunded Mandates Reform Act requirements
Budget enforcement mechanisms
2010 census lessons learned
Value added taxes
Tax system complexity and taxpayer compliance
Government Performance and Results Modernization Act of 2010 
implementation

    Source: GAO.
<greek-l>gao deg.appendix iii: government accountability office's 2011 
                             high-risk list
Strengthening the Foundation for Efficiency and Effectiveness
    Management of Federal oil and gas resources (new).
    Modernizing the outdated U.S. financial regulatory system.
    Restructuring the U.S. Postal Service to achieve sustainable 
financial viability.
    Funding the Nation's surface transportation system.
    Strategic human capital management.
    Managing Federal real property.
Transforming Department of Defense Program Management
    Department of Defense Approach to business transformation.
    Department of Defense Business systems modernization.
    Department of Defense Support infrastructure management.
    Department of Defense Financial management.
    Department of Defense Supply chain management.
    Department of Defense weapon systems acquisition.
Ensuring Public Safety and Security
    Implementing and transforming the Department of Homeland Security.
    Establishing effective mechanisms for sharing and managing 
terrorism-related information to protect the Homeland.
    Protecting the Federal Government's information systems and the 
Nation's cyber critical infrastructures.
    Ensuring the effective protection of technologies critical to U.S. 
national security interests.
    Revamping Federal oversight of food safety.
    Protecting public health through enhanced oversight of medical 
products.
Transforming Environmental Protection Agency's Process for Assessing 
        and Controlling Toxic Chemicals
    Managing Federal contracting more effectively;
    Department of Defense contract management;
    Department of Energy's contract management for the National Nuclear 
Security Administration and Office of Environmental Management;
    National Aeronautics and Space Administration acquisition 
management;
    Management of interagency contracting;
    Assessing the efficiency and effectiveness of tax law 
administration;
    Enforcement of tax laws; and
    Internal Revenue Service business systems modernization.
Modernizing and Safeguarding Insurance and Benefit Programs
    Improving and modernizing Federal disability programs.
    Pension Benefit Guaranty Corporation Insurance Programs.
    Medicare program.
    Medicaid program.
    National Flood Insurance Program.
   <greek-l>gao deg.appendix iv: government accountability office's 
                        strategic plan framework
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Nelson. Thank you, Mr. Dodaro.
    And my ranking member is here, we'll certainly call on him 
for any opening remarks he might like to make.

                    STATEMENT OF SENATOR JOHN HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman. Good to be here 
with you. I apologize for being late. We did have a couple 
votes on the floor that delayed things a little bit.
    But thanks to all of you for being here today. More 
importantly, thank you for what you do. We appreciate it. You 
do an outstanding job, not only for the Senators, but for the 
people of this great country. And so I want to start out by 
saying thank you, we appreciate it.
    As you know very well, we're in challenging times from a 
budgetary standpoint, and so it's incumbent on all of us to 
figure out how we reduce the deficit and the debt and get our 
financial situation in order.
    And I bring my experience as a Governor, as does our 
chairman, and I know he probably had an opportunity to cut 
budgets, and I certainly did, too, particularly early in my 
career. And I remember there are two kinds of schools of 
thought.
    One school of thought is everybody should take a 
proportional reduction. And the strength of that is that 
everybody is helping share the load, so there's a certain 
fairness from that standpoint.
    And then, of course, the other kind of general concept is 
some programs you have to prioritize, and some programs merit 
more resources, and some programs merit less resources, and 
some programs should be eliminated. And that, obviously, has 
real merit in that you maximize the use of your resources by 
prioritizing.
    And I think that goes very much to a lot of what you do, 
certainly at GAO and CBO, for example, you deal with that very 
issue, and it's very important.
    My sense is we have to do some of both; All of us are going 
to have to and I don't mean just here in Washington, DC; I mean 
throughout our country. We have to all be a part of solving 
this problem, and so we have to share the load in that respect.
    But then, at the same time, we have to do the very best job 
that we can prioritizing, times change, needs change, and 
programs change.
    So for us to do the best possible job here, we have to both 
make sure everybody understands that they have to participate, 
they have to be part of picking up the load here. That's very 
important.
    And then the other part is we have to recognize that there 
is a prioritization that we have to do that's important, and 
then we have to do the best job we can on that.
    So the number that we're going to have to make work for the 
legislative branch is not a number that the chairman and I will 
decide. Certainly, we'll have input. The chairman might even 
have more than I do. But we'll have a number that we're going 
to have make work.
    And it's my sense that for the legislative branch, the 
number that came to us in the administration's budget with an 
increase of 5.4 percent, we're going to have to make things 
work at less.
    And so I guess the main message I'd start with is, we know 
you put a lot of thought and a lot of effort into this. We're 
still going to have to go through it and continue to evaluate 
and prioritize as best we can, and then find more savings, 
recognizing that that's just where we are in terms of our 
financial situation.
    Now, with that said, you're the experts. And speaking for 
myself, and I think probably the chairman, too, we're going to 
look to you to tell us how to best do this. And we're going to 
work with you to do the best job we can.
    Senator Hoeven. Thank you.
    Senator Nelson. Thank you, Senator Hoeven.
    And I thought the ``W.H.'' over with the administration 
stood for ``White House.'' It stands for ``white hat'', 
offering 5.4 percent. Does that mean that we now have a 
different kind of hat to wear here?
    And the thing in Washington about shared sacrifice is, 
every time it's discussed, it seems to me, that somebody wants 
your share and for you to sacrifice. That's shared sacrifice. 
And they're ready to sacrifice until your last dime.
    So, anyway, we'll work together to get a budget so that we 
can continue to function at the level it needs to be and do it 
in, hopefully, the smartest way possible, because of the 
outstanding input that you've given us thus far. And I know 
there'll be additional input as we try to work through this.
    So having said that, Ms. Vance-Cooks.

                       GOVERNMENT PRINTING OFFICE

STATEMENT OF DAVITA VANCE-COOKS, ACTING PUBLIC PRINTER
    Ms. Vance-Cooks. Chairman Nelson, Senator Hoeven, good 
afternoon, and thank you for inviting me here today to discuss 
the GPO's appropriation request for fiscal year 2013.
    In the interest of time, as you have asked, I will briefly 
cover three points: first, our flat-line budget request; 
second, our emphasis on cost savings; and third, our commitment 
to technological improvements, all of which benefit the 
Congress and the American public.
    First, our flat-line budget request. The mission of GPO is 
to keep America informed. Over the past 151 years, GPO has 
accomplished this mission by producing and distributing 
information products for all three branches of the Federal 
Government. GPO's request for fiscal year 2013 is for a total 
of $126.2 million. This is the same level of funding that we 
have for the current fiscal year.
    As a result of a projected decrease in traditional 
printing, and in response to rapidly changing technological 
processes, we are proposing to shift a portion of our funds 
away from conventional printing and distribution activities 
toward an increased investment in technological improvements.
    This strategy reflects our commitment to keep America 
informed by continuing to transform ourselves into a digital 
information platform and a provider of secure credentials.
    We are reducing our request for the Congressional Printing 
and Binding appropriation by 8 percent, which is equivalent to 
$7.1 million. We are also requesting a small reduction in our 
Salaries and Expense appropriation. We want to take these 
reductions and apply them to our revolving fund, where they 
will be used to support the continued development of our 
information technology (IT) infrastructure, including our 
Federal Digital System (FDSys), which provides the public with 
online access to congressional and other information.
    We are also requesting funds for necessary maintenance and 
repairs to our facilities, principally our fire suppression 
system and the ongoing work to renovate our elevators, both of 
which pose health and safety risks.
    Point number two: GPO is, in fact, reducing the cost of 
operations. To generate cost savings, we conducted a buyout 
last year that resulted in the reduction of 250 positions. And 
with the additional reductions as a result of just general 
separations, we have reduced our workforce by 15 percent.
    This is the lowest staffing level in the past century. Our 
organization has right-sized, and we are fortunate to have 
dedicated and committed employees who are willing to work 
around the clock to support the needs of the Congress.
    We've cut back on overhead significantly, and we're 
reducing those costs to our fiscal year 2008 level.
    We conducted the first-ever survey of congressional offices 
on their printing needs, and it resulted in cutting hundreds of 
copies of the Congressional Record and other documents which 
are printed daily.
    We're even renting available space in our building to those 
agencies that need it, which helps us to reduce our costs.
    Third is the issue of technology. GPO is meeting the 
challenges of the digital age by using technology in innovative 
ways to accomplish our mission of ``Keeping America Informed'', 
and it supports openness and transparency.
    FDSys makes available more than 668,000 titles. We also see 
13.1 million documents downloaded each month. And we have 
established ourselves as a leader in the authentication of 
electronic documents by using our digital signature capability.
    We are the trusted provider of secure credentials for the 
Government, and we have entered the world of e-books and apps. 
We have a longstanding relationship with the Department of 
State in producing e-passports.

                           PREPARED STATEMENT

    In conclusion, our flat-line budget request, our emphasis 
on cost savings, and our commitment to technological 
improvements are important factors in helping GPO to do more 
with less.
    Chairman Nelson and Senator Hoeven, this concludes my 
opening remarks and I will be happy to answer any questions you 
have. Thank you.
    [The statement follows:]
                Prepared Statement of Davita Vance-Cooks
    Mr. Chairman, Senator Hoeven, and members of the Senate 
Subcommittee on Legislative Branch appropriations: It is an honor to be 
here today to present the appropriations request of the Government 
Printing Office (GPO) for fiscal year 2013.
    Our request is for the Congressional Printing and Binding 
appropriation and the Salaries and Expenses appropriation of the 
Superintendent of Documents, both of which are included in the annual 
legislative branch appropriations bill. These two accounts cover GPO's 
provision of congressional information products and services as 
authorized by law and our provision of public access to congressional 
and other Government information products through statutorily 
established information dissemination programs under the Superintendent 
of Documents.
    All other GPO functions and activities--including the production of 
U.S. passports for the State Department as well as secure credentials 
for congressional and agency use, the procurement of information 
products and services in partnership with the private sector, the sales 
of Government information products and services to the public, and 
related operations--are financed on a reimbursable basis through GPO's 
business-like revolving fund, which also is authorized through the 
annual legislative branch appropriations bill.
                               background
    GPO is the Federal Government's primary centralized resource for 
producing, procuring, cataloging, indexing, authenticating, 
disseminating, and preserving the official information products of the 
U.S. Government in digital and tangible forms. The agency is 
responsible for the production and distribution of information products 
for all three branches of the Federal Government, including U.S. 
passports for the Department of State as well as the official 
publications of the Congress, the White House and other Federal 
agencies, and the courts.
    Along with sales of publications in digital and tangible formats to 
the public, GPO supports openness and transparency in Government by 
providing permanent public access to Federal Government information at 
no charge through our Federal Digital System (www.fdsys.gov), which 
today makes more 680,000 Federal titles available online from both 
GPO's servers and links to servers in other agencies, and sees more 
than 13.1 million documents downloaded every month. We also provide 
public access to Government information through partnerships with 
approximately 1,220 libraries nationwide participating in the Federal 
Depository Library Program. In addition to GPO's Web site, www.gpo.gov, 
we communicate with the public routinely via Twitter--twitter.com/
USGPO; YouTube--http://www.youtube.com/user/gpoprinter; and Facebook--
http://www.facebook.com/USGPO.
    GPO first opened its doors for business 151 years ago, on March 4, 
1861, the same day Abraham Lincoln was inaugurated as the 16th 
President. Our mission can be traced to the requirement in Article I, 
section 5 of the Constitution that ``each House shall keep a journal of 
its proceedings and from time to time publish the same.'' We have 
produced every great American state paper--and an uncounted number of 
other Government publications--since President Lincoln's time, 
including the Emancipation Proclamation. Social Security cards, 
Medicare and Medicaid information, Census forms, tax forms, citizenship 
forms, military histories ranging from the ``Official Records of the 
War of the Rebellion'' to the latest accounts of our forces in Iraq and 
Afghanistan, emergency documents like the ration cards and the ``Buy 
Bonds'' posters used during World War II, the Warren Commission Report 
on President Kennedy's assassination, the Watergate transcripts, the 9/
11 Commission Report, Presidential Inaugural addresses, Supreme Court 
opinions, and the great acts of the Congress that have shaped our 
society--all these as well as millions of other documents from the 
historic to the humble have been produced by GPO on their way to use by 
the Congress, Federal agencies, and the public. Last year, we opened a 
public exhibit on GPO's history that has received extremely positive 
reviews. I invite all of you and your staffs to come by for a visit.
    For the Clerk of the House, the Secretary of the Senate, and the 
committees of the House and the Senate, we produce the documents and 
publications required by the legislative and oversight processes of the 
Congress, including the daily Congressional Record, bills, reports, 
legislative calendars, hearings, committee prints, and other documents, 
as well as stationery, franked envelopes, and other materials such as 
memorials and condolence books, programs and invitations, phone books, 
and the other products needed to conduct business of the Congress. We 
also detail expert staff to support the information product 
requirements of House and Senate committees and congressional offices 
such as the House and Senate Offices of Legislative Counsel.
  <greek-l>gpo deg.government printing office and digital information 
                              technologies
    GPO's present and future are clearly being defined by digital 
technology, and digital technology itself has radically changed the way 
printing is performed today. This is especially true where the 
information products used by the House and Senate are concerned. GPO's 
conversion to digital databases for the composition of congressional 
publications occurred more than a generation ago. Today, the activities 
associated with creating congressional information databases comprise 
the vast majority of the work funded by our annual congressional 
printing and binding appropriation.
    In addition to using these databases to produce printed products as 
required by the Congress, we upload them to the Internet via FDSys. 
Since we first went online with congressional information in 1994, we 
have provided the Congress and the public with the definitive source 
not only of legislative, but executive and judicial information online.
    Our creation of digital databases of congressional information from 
which we can print and provide online public access has dramatically 
increased productivity and dramatically reduced costs to the taxpayer. 
As our budget submission shows, our digital production systems have 
reduced the level of the congressional printing and binding 
appropriation by more than two-thirds in constant dollar terms since 
1980 while expanding our information capabilities exponentially.
    GPO's congressional database systems also form the basic building 
blocks of other information systems supporting the Congress. Our 
congressional information databases are provided directly to the 
Library of Congress (LOC) to support its THOMAS system as well as the 
legislative information systems LOC makes available to House and Senate 
offices. GPO and LOC are also collaborating today on the digitization 
of previously printed documents, such as the Congressional Record, to 
make them more broadly available to the Congress and the public, and we 
are jointly developing a new process for updating the digital edition 
of the Constitution Annotated.
    GPO's digital systems also support other key Federal publications, 
including the U.S. budget and, most importantly, the Federal Register 
and associated products, which we also produce. Our advanced 
authentication systems, supported by public key infrastructure, are an 
essential component for assuring the digital security of congressional 
and agency documents.
    The other major products that GPO produces are U.S. passports for 
the Department of State, the premier component of our secure and 
intelligent documents business unit. At one time no more than a 
conventionally printed document, passports today incorporate a chip and 
antenna array capable of carrying biometric identification data, which 
with other security features has transformed this document into the 
most secure identification credential obtainable. We have also 
developed a line of secure identification ``smart cards'' to support 
the credential requirements of the Department of Homeland Security for 
certain border crossing documents, and our secure credential unit has 
been certified as the only government-to-government provider of 
credentials meeting the requirements of Homeland Security Presidential 
Directive 12 (HSPD-12).
    <greek-l>gpo deg.government printing office in partnership with 
                                industry
    Other than congressional and inherently governmental work such as 
the Federal Register, the budget, and secure and intelligent documents, 
we produce virtually all other information product requirements via 
contracts through a partnership with the private sector printing 
industry. In fact, our procurement operation handles approximately 75 
percent of all work sent to GPO for production, currently amounting to 
$350 to $400 million annually. This system is one of the Government's 
longest running and most successful programs of utilizing the private 
sector, which is represented by more than 16,000 individual firms 
registered to do business with us, the vast majority of whom are small 
businesses averaging 20 employees per firm. Contracts are awarded on a 
purely competitive basis; there are no set-asides or preferences in 
contracting other than what is specified in law and regulation, 
including a requirement for Buy American. This partnership provides 
great economic opportunity for the private sector.
   <greek-l>gpo deg.government printing office and open, transparent 
                               government
    Producing and distributing the official publications of our 
Government fulfills an informing role originally envisioned by the 
Founders, when James Madison said:

    ``A popular Government without popular information, or the means of 
acquiring it, is but a Prologue to a Farce or a Tragedy, or perhaps 
both. Knowledge will forever govern ignorance, and a people who mean to 
be their own Governors, must arm themselves with the power which 
knowledge gives.''

    A key mechanism for this purpose is the Federal Depository Library 
program (FDLP), which today serves millions of Americans through a 
network of some 1,220 public, academic, law, and other libraries 
located in virtually every Congressional District across the Nation. 
For more than a century, these libraries have served as critical links 
between ``We the People'' and the information provided by the Federal 
Government. GPO provides the libraries with information products in 
online or tangible formats, and the libraries in turn make these 
available to the public at no charge and provide additional help and 
assistance to depository library users. One of the other programs we 
operate is in fulfillment of an international treaty. Under it, we 
distribute certain Federal publications to other governments abroad as 
designated by the LOC. In return, they send the LOC their official 
publications, which the Library then makes available for the use of the 
Congress and the public.
    Along with these programs, we also provide public access to the 
wealth of official Federal information through public sales featuring 
secure ordering through an online bookstore for GPO sales publications 
and a partnership with the private sector to offer Federal publications 
as e-Books. We also operate effective and efficient information 
distribution programs for other Federal agencies on a reimbursable 
basis, including the General Services Administration (GSA) Consumer 
Information Center publications.
    As for the results of fiscal year 2011, I am pleased to report that 
GPO's businesslike operations and its record of savings for the 
taxpayer resulted in the generation of $5.6 million in net income for 
the year. As former Public Printer Bill Boarman noted in his annual 
report to the Congress, however, the achievement of this positive 
financial result was not foreordained. Instead, the financial condition 
of the agency earlier in the year and the fiscal realities of 2011 
presented GPO with a number of serious challenges. Overhead costs had 
increased significantly in recent years and were projected to increase 
further, threatening our financial stability. There was also a 
longstanding problem of nearly $30 million in unrecovered payments owed 
to GPO by Federal agencies.
    In response, we worked closely with this subcommittee and its 
counterpart in the House to resolve GPO's funding for fiscal year 2011 
at a level that was significantly lower than what was originally 
requested. We cut our annual spending plan for fiscal year 2011 as 
previously submitted to the Joint Committee on Printing by 15 percent. 
We held the line on salary increases consistent with the pay freeze 
ordered by the President, reduced the number of senior-level managers, 
and implemented controls on hiring, travel, overtime, and related 
discretionary accounts. Together these actions resulted in a 
significant reduction in overhead expenses. To address the problem of 
outstanding payments from Federal agencies, we created a multi-
disciplinary task force, an effort that by yearend reduced the balance 
of outstanding payments by more than one-third.
    To help the Congress reduce its printing costs, during fiscal year 
2011 we conducted the first-ever survey of Senate and House offices on 
their continued need for daily printed copies of the Congressional 
Record and other documents. The survey resulted in an 18-percent 
reduction in the number of Congressional Record copies printed, the 
largest single-year reduction since GPO first introduced the online 
Congressional Record in 1994 (not counting the House's elimination of 
copies for public agencies and institutions designated by 
Representatives in 1995, the average annual reduction in the number of 
Congressional Record copies printed since 1994 has been 4 percent).
    During fiscal year 2011, we also conducted a voluntary separation 
incentive program, or buyout, to reduce staffing in anticipation of 
lower appropriations and other revenue sources. The buyout targeted a 
reduction of 15 percent of the workforce and, in combination with other 
staffing reductions, we achieved 95 percent of that goal, reducing 
GPO's workforce by 312 positions to 1,920, the lowest level in more 
than a century.
    Another cost-saving initiative has involved discussions with 
outside agencies over their potential use of available GPO space, which 
could significantly reduce our facilities expense, as recommended by 
this subcommittee in its report on our fiscal year 2012 appropriations. 
We now have an agreement with the Architect of the Capitol to expand 
its use of our space, and we are in discussions with other entities 
over their use of GPO space.
    While we worked to reduce costs in fiscal year 2011, we also made a 
commitment to do more with less. We developed and released a Strategic 
Vision Plan that emphasizes customer service. The focus of the plan has 
begun to take hold as shown by the results of a recent survey of GPO's 
customer agencies. We gained the approval of the Joint Committee on 
Printing for an annual spending plan for fiscal year 2012 that will 
yield new efficiencies in GPO's services while reducing costs by 6.4 
percent compared with last year's plan. We continued the development of 
FDSys as the Congress and Federal agencies move increasingly to the use 
of digital information products, and we added several new collections 
last year. At the request of the National Archives and Records 
Administration (NARA), we also used FDSys to support public access to 
the previously unreleased grand jury proceedings involving President 
Nixon, and recently we supported NARA again in releasing the audio 
tapes made on Air Force One as it returned to Washington following the 
assassination of President Kennedy.
    We started a Facebook page for GPO, implemented a new pilot project 
to make Federal court opinions freely available online to the public, 
and expanded our partnership with Google Books to include Federal 
consumer-oriented information made available by the GSA as well as the 
first volume of the ``Public Papers of President Obama''. In November 
we released a mobile web application of our online ``Member Guide'', 
the first of its kind by GPO, providing the public with access on a 
variety of devices to photos and other information about Members of 
Congress, and in January we supported the Library of Congress in its 
development of a new Congressional Record app for the iPad, as 
requested by the Committee on House Administration. Recently, we issued 
a mobile web application for the U.S. budget, which received more than 
77,000 hits in its first few days of use.
    In summary, GPO's program of reducing costs while continuing to 
expand GPO's critically important information services to the Senate 
and House of Representatives, as well as Federal agencies and the 
public, is working and showing real and measurable benefits, and we 
plan to continue following this path.
        <greek-l>gpo deg.fiscal year 2013 appropriations request
    We are requesting a total of $126.2 million for fiscal year 2013 
that will enable us to: meet projected requirements for GPO's 
congressional printing and binding operations during fiscal year 2013; 
fund the operation of GPO's statutory information dissemination 
programs; and continue the development of FDSys and implement other 
improvements to facilities infrastructure related to health and safety.
    Our request represents no increase over the level of funding 
provided for fiscal year 2012 in Public Law 112-74. Within our flat 
funding request, we are proposing to shift approximately $7.3 million 
from the congressional printing and binding and salaries and expenses 
appropriations to the revolving fund in order to expand our investments 
in digital information technology projects, including projects 
supporting increased online access to congressional and other Federal 
information, modernization of GPO's composition processes supporting 
congressional work, and related initiatives.
   <greek-l>gpo deg.congressional printing and binding appropriation
    We are requesting $83.6 million for this account, representing a 
decrease of about $7 million from the level of funding provided for 
fiscal year 2012.
    The estimated requirements for fiscal year 2013 include a marginal 
price level increase due to projected increases in printing costs. 
However, this increase is more than offset by projected decreases in 
volume due principally to anticipated workload reductions for the 
Congressional Record, miscellaneous printing and services (this 
workload category increased in fiscal year 2012 in part due to 
Inaugural printing requirements), calendars, hearings, and bills, 
resolutions, and amendments. These workload decreases will also offset 
the production of the 2012 edition of the U.S. Code, which by law is 
issued in a new edition every 6 years.
      <greek-l>gpo deg.salaries and expenses appropriation of the 
                      superintendent of documents
    We are requesting $34.7 million for this account, a decrease of 
about $300,000 from the level approved for fiscal year 2012.
    The requested funding will cover mandatory merit and other pay 
increases for 114 FTEs, the same number as fiscal year 2012, as well as 
price level increases. The most notable workload increase will be for 
the production and distribution of copies of the U.S. Code for Federal 
depository libraries, since this is considered an essential FDLP 
publication. However these costs will be more than offset by a 
significant reduction in facilities and overhead costs formerly billed 
to this account resulting from the relocation of our depository 
distribution function from the main GPO buildings in Washington to our 
Laurel, Maryland, warehouse, as well as a reduction of other 
nonrecurring costs (including the FDLP's migration and modernization of 
legacy systems which was funded in fiscal year 2012), which will no 
longer be required to be funded in fiscal year 2013.
                    <greek-l>gpo deg.revolving fund
    We are requesting appropriations of $7.8 million for this account, 
to remain available until expended, to fund essential investments in 
information technology development and facilities improvements. Our 
request represents an increase of $7.3 million over the level of 
funding provided for this account for fiscal year 2012.
    The request includes $7.3 million for information technology 
development, including $3.9 million to continue developing FDSys, $1.5 
million each for GPO's Composition System Replacement and Oracle 
business system projects, and $400,000 for information technology (IT) 
security improvements. These IT projects include components that will 
have a direct impact on the provision of digital information production 
and dissemination services for the Congress, such as the development of 
a composition system to replace GPO's aging Microcomp-based system, 
improved support for congressional publications ingested into FDSys, 
and digitization of the bound Congressional Record, a project that GPO 
is working on in partnership with LOC. In addition, we are requesting 
$500,000 for life/safety improvements for our buildings that include 
continued elevator repairs and renovation and new fire pumps.
    Mr. Chairman, Senator Hoeven, and members of the subcommittee, this 
concludes my prepared statement. We deeply appreciate your support of 
our appropriations request for fiscal year 2012, and we look forward to 
working with you and your staffs in your consideration of our 
appropriations request for fiscal year 2013.

    Senator Nelson. Thank you very much.
    Dr. Elmendorf.

                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DOUGLAS W. ELMENDORF, Ph.D., DIRECTOR
    Dr. Elmendorf. Thank you, Mr. Chairman, Senator Hoeven. I 
appreciate the opportunity to present CBO's budget request for 
2013.
    As you know, our mission is to provide the Congress with 
objective, impartial, and nonpartisan analysis of budget and 
economic issues. In fulfilling that mission, we rely on a 
highly dedicated and highly skilled workforce. As a result, 
more than 90 percent of our budget is compensation for our 
staff.
    So the contours of our budget and staffing level are 
closely linked. Let me describe our budget request and its 
implications for our work. I'll be referring to the picture in 
front of you, which comes out of our budget request document.
    Our proposed budget for fiscal year 2013, the far right bar 
on the graph, is $44.6 million. In light of the tight budget 
constraints facing the Government, this request represents an 
increase of only 1.9 percent, or $850,000 from the amount 
provided in fiscal year 2012, and an increase of only 1.2 
percent, or $555,000, from the regular appropriation provided 
in fiscal year 2009.
    As you know, congressional demand for CBO's estimates and 
analysis has been extremely high during the past few years. In 
particular, the surge in Federal debt and projected deficits 
has led to ongoing congressional efforts to make fundamental 
changes in budget policy, which has strained our resources in a 
number of areas.
    We provided a tremendous number of estimates during the 
debate over appropriations for fiscal year 2011 that extended 
into the spring of last year, during the bipartisan 
negotiations last spring and summer about larger changes in 
policy linked to an increase in the debt limit, during the work 
of the Joint Select Committee on Deficit Reduction last fall, 
and during debates about many other possible changes in law.
    Given the daunting outlook for the U.S. economy and the 
Federal Government's budget, we have no reason to expect that 
the Congress' interest in analyses from CBO will wane for the 
foreseeable future.
    Despite that heavy workload, our funding for fiscal year 
2012, as you know, is less than the amounts provided in the 
preceding few years. To reduce expenses, we have significantly 
curtailed salary increases and sharply cut spending on IT, 
data, training, and other areas. We've also stopped most hiring 
of new staff to replace people who leave.
    As I mentioned, our requested funding for next year is only 
slightly more than was provided for this year and little more 
than was obligated 4 years ago. To operate the agency at that 
level of funding would require a combination of minimal 
increases in salaries; very limited spending on IT, data, 
training, and other things; and a reduction in the number of 
CBO analysts relative to the past few years.
    Regarding the nonpay parts of our budget, we propose to 
spend only about one-half as much in fiscal year 2013 as we 
spent on average in the past few years. We would not be able to 
sustain such low spending through fiscal year 2014 without 
compromising the quality of our work in an important way.
    Regarding the pay parts of our budget, we propose to cut 
staffing in fiscal year 2013 to about 235 people. I'm sorry to 
have to say that the reduction in staffing relative to levels 
we've had in the past few years would have a negative impact on 
the analysis we can provide to the Congress. Fewer analysts 
will mean fewer estimates and analyses of budget and economic 
policies.
    As you know, we've already been unable to analyze many 
proposals that are sent to us, unable to serve committees as 
quickly as they or we would like, and unable to improve our 
modeling as much as we should. Reductions in our staffing would 
make those problems worse.
    CBO is a fairly small organization relative to the scope of 
the topics on which we work. With only 235 people to cover the 
full range of budget and economic issues, and with most of 
those issues requiring a good deal of specialized knowledge, 
cuts in our staffing can leave noticeable weak spots very 
quickly.
    For example, 1 of our 3 lawyers just retired and we cannot 
afford to hire another at this point. That represents a one-
third drop in our legal staff. One of the four analysts who 
studied the macroeconomic effects of changes in taxes and 
Government spending will be leaving this summer. We're not sure 
if we can afford to replace her. And if not, that will 
represent a one-fourth reduction in our capability to do 
analysis in that area.
    And there are other examples of this sort. And I am frankly 
worried that the consequences of cutbacks in our staffing will 
quickly become all too apparent to you and your colleagues.

                           PREPARED STATEMENT

    That said, we certainly understand the restraints under 
which the Appropriations Committee is operating. We are very 
grateful for the support that you've always given to our work, 
and we will continue to make every effort to serve you and your 
colleagues as effectively as we possibly can with whatever 
resources you give us.
    Thank you.
    [The statement follows:]
           Prepared Statement of Douglas W. Elmendorf, Ph.D.
    Mr. Chairman, Senator Hoeven, and members of the subcommittee, 
thank you for the opportunity to present the Congressional Budget 
Office's (CBO) budget request for fiscal year 2013.
    CBO's mission is to provide the Congress with objective, impartial, 
and nonpartisan analyses of budget and economic issues, including the 
information and cost estimates needed for the congressional budget 
process. In fulfilling that mission, CBO depends on a highly skilled 
workforce. About 92 percent of CBO's budget represents compensation for 
the agency's staff; another 5 percent is for information technology 
(IT) equipment and services; and the remainder is for data, training, 
office supplies, and other items. As a result, the contours of CBO's 
budget and the staffing levels of the agency have been and will 
continue to be closely linked.
    CBO's proposed budget for fiscal year 2013 is $44.6 million. In 
light of the budget constraints facing the Federal Government, this 
request represents an increase of only 1.9 percent ($850,000) from the 
$43.8 million provided to CBO in fiscal year 2012 and an increase of 
only 1.2 percent ($555,000) from the regular appropriation of $44.1 
million provided to CBO in fiscal year 2009.
    Operating the agency in fiscal year 2013 with only slightly more 
funding than was provided for this fiscal year and little more than was 
obligated 4 years earlier would be possible only through a further 
reduction in the number of CBO analysts; minimal increases in salaries; 
and sharp cutbacks in spending on IT, data, training, and other items. 
Although CBO will continue to make every effort to serve the Congress 
as effectively as possible, the changes that would be required under 
the proposed budget would unavoidably diminish the number of estimates 
and analyses of budget and economic policies that CBO was able to 
provide.
                    <greek-l>cbo deg.funding history
    Between fiscal year 2001 and fiscal year 2008, the number of full-
time equivalent positions (FTEs) at CBO averaged 230 FTE, and the 
number varied little from year to year. During that period, CBO's 
budget rose slowly, on balance, as Federal employees received salary 
increases and the cost of Federal benefits increased.
    In 2008, CBO became concerned that it did not have sufficient 
resources to analyze policy changes regarding the delivery and 
financing of healthcare that were emerging as a critical issue in the 
Congress. In addition, the agency was delivering an increasing number 
of testimonies and formal cost estimates, providing a rapidly growing 
volume of informal estimates, and engaging in more frequent 
communications with Hill staff on a wide range of topics, so shifting a 
significant number of staff positions from other areas to the health 
area did not seem feasible.
    Accordingly, CBO proposed to the Congress a multiyear plan to boost 
the size of the agency to nearly 260 FTEs, an increase of a little more 
than 10 percent. The Congress approved the first leg of that proposed 
increase in CBO's budget for fiscal year 2009. Analyses of competing 
healthcare proposals absorbed a huge share of CBO's resources, and the 
financial crisis and severe recession led to a jump in congressional 
requests for analyses, budget projections, and cost estimates in many 
other areas. Consequently, the Congress approved a 2-year supplemental 
appropriation for CBO during 2009 and also approved an increase in the 
agency's regular appropriation for fiscal year 2010. Making use of that 
additional funding, CBO averaged about 250 FTEs during 2010 (see Figure 
1).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Figure 1. CBO's Funding and Staffing for Fiscal Years 2009 Through 2013

    Congressional demand for CBO's estimates and other analysis has 
remained extremely high in the past few years. The enactment of major 
healthcare legislation in 2010 has increased, rather than diminished, 
the number of other proposals for changes in Federal healthcare 
programs, and it has made CBO's analysis of such proposals much more 
complex. In addition, the depth and duration of the economic downturn 
have generated significant demand for analyses of the effects of both 
enacted and proposed responses to those economic conditions. Moreover, 
the surge in Federal debt and projected deficits has led to ongoing 
congressional efforts to enact fundamental changes in budget policy, 
which have strained CBO's resources in many areas. CBO provided a 
tremendous number of estimates during the debate over appropriations 
for fiscal year 2011 that extended into the spring of the year, the 
bipartisan negotiations last spring and summer about larger changes in 
policies linked to an increase in the debt limit, the work of the Joint 
Select Committee on Deficit Reduction last fall, and the continuing 
debate about extending various provisions of law through the rest of 
2012.
    Despite that heavy workload, CBO's appropriation for fiscal year 
2011 was less than the total funding available to the agency in fiscal 
year 2010, and its funding for fiscal year 2012 is less than the amount 
provided in fiscal year 2011. To reduce expenses in fiscal year 2012, 
CBO has significantly curtailed salary increases and sharply cut 
spending on IT, data, training, and other items. Given the large share 
of the agency's budget devoted to compensation, however, those changes 
do not, by themselves, reduce spending sufficiently. Therefore, CBO has 
also stopped most hiring of new staff to replace those who leave, and 
attrition has reduced the number of FTEs at the agency to about 242 
currently; by the end of this fiscal year, CBO aims to be operating 
with 237 FTEs (generating an average for this year of 240 FTEs).
  <greek-l>cbo deg.some details of the congressional budget office's 
                    fiscal year 2013 budget request
    CBO expects that congressional demand for the agency's estimates 
and other analyses will remain high in fiscal year 2013. The agency's 
mission of providing nonpartisan budgetary and economic information to 
the Congress will remain the same. Fulfilling that mission will require 
providing reports on the budget and economic outlook, an analysis of 
the President's budget, long-term budget projections, options for 
reducing budget deficits, cost estimates, mandate statements, and 
scorekeeping tabulations. Fulfilling the agency's mission will also 
require providing in-depth analyses of a broad range of program and 
policy issues requested by committees.
    The specific issues that the Congress will be addressing in 2013 
are difficult to predict, but CBO's analyses are likely to include work 
on healthcare, policies for increasing economic growth and employment, 
energy policy, tax reform, reform of entitlement programs, 
infrastructure, defense policy, the Government's role in financial 
markets, and a wide variety of budget policy options. Altogether, CBO 
anticipates a workload of:
  --Roughly 525 formal cost estimates, most of which will include not 
        only estimates of Federal costs but also assessments of the 
        cost of mandates imposed on State, local, and tribal 
        governments or the private sector;
  --Thousands of preliminary, informal cost estimates, the demand for 
        which is growing as committees seek to have a clearer picture 
        of the budgetary impact of proposals and variants of proposals 
        before they formally consider legislation;
  --Roughly 200 scorekeeping tabulations, including status reports for 
        discretionary appropriations, estimates for individual 
        appropriation acts, and compilations of direct spending and 
        revenue effects for budget enforcement purposes; and
  --About 130 analytical reports, testimonies, and other publications, 
        which are generally required by law or prepared in response to 
        requests from the chairmen and ranking members of key 
        committees.
    The demand for CBO's analyses currently exceeds, by a substantial 
margin, what the agency can produce with its current staff. 
Unfortunately, CBO is unable to analyze many legislative proposals that 
are sent by Members of Congress, unable to promptly complete in-depth 
analyses of many issues that are requested by committees, and unable to 
improve its modeling as much as would be desirable to capture the many 
channels through which proposals can affect the Federal budget, the 
economy, and the well-being of citizens. Further reductions in the size 
of CBO's staff would make those problems worse.
    Nonetheless, recognizing the stringency of the Federal budget 
situation, CBO proposes to cut back to about 235 FTEs by the end of 
fiscal year 2013, about 6 percent fewer than the average staffing in 
2010. That cut (which would give CBO an average for the year of 236 
FTEs) would have several key consequences:
  --First, a reduction to that staffing level by next year could 
        probably be achieved by attrition, but that is not certain. If 
        CBO does not experience sufficient attrition, then reaching 
        that staffing level could require furloughs or layoffs--this 
        year, next year, or both.
  --Second, to have 235 FTEs by the end of next year would mean that 
        most of the increase in CBO staffing set in motion in 2008 
        would be reversed. Yet the increase in demands on CBO related 
        to analyzing healthcare costs and the burgeoning Federal debt 
        has not been reversed.
  --Third, because losses through attrition will undoubtedly not line 
        up well with the places where the agency can most afford to 
        lose resources, CBO may have some noticeable weak spots in its 
        capabilities during the next few years.
    In addition, CBO is not planning any across-the-board increase in 
salaries for employees in calendar year 2013, matching what it did in 
calendar year 2011 and is doing in calendar year 2012. The agency is 
also reducing further the size of performance-based pay raises it gives 
to employees who are not eligible for across-the-board increases.
    CBO also proposes stark cuts in nonpay areas of its budget in 
fiscal year 2013. Relative to CBO's average outlays in fiscal years 
2009 through 2011, IT spending next year would be about 40 percent 
less, spending on training would be one-third smaller, purchases of 
data would be reduced by more than 15 percent, and spending for other 
purposes would be cut significantly as well.
    CBO's request supports the following:
  --$31 million for pay of personnel compensation;
  --$10.3 million for personnel benefits; and
  --$3.3 million for IT, data, services, equipment, training, and other 
        items.
    The severe limits on salary increases and spending in the nonpay 
areas of the budget that CBO is proposing for fiscal year 2013 cannot 
be sustained through fiscal year 2014 without significantly sacrificing 
the quality of the CBO staff and the tools with which they work. 
Consequently, unless a larger increase in funding is made available to 
CBO in fiscal year 2014, the agency expects that it will implement 
further cutbacks in staffing that year and be forced to limit further 
the support that it provides to the Congress.
    In closing, I would like to thank the subcommittee for the support 
it has provided CBO, enabling the agency to carry out its 
responsibilities to provide budgetary and economic information to the 
Congress.

    Senator Nelson. Thank you.
    Shall we do a 5-minute round?
    Senator Hoeven. Sure.
    Senator Nelson. Mr. Dodaro, GAO, along with the other 
agencies of the legislative branch, I think have all done a 
remarkable job this year of finding a way to do more with less. 
And I don't think a single Member of this body has complained 
about any diminished quality in your work. I know you're very 
much concerned about delays and not being able to meet all the 
obligations, but if there is any complaining going on, it would 
have come to us. Perhaps it is going to Senator Schumer, since 
he's facing the responsibility of getting more done with less 
within the Senate. But I'm just not hearing things, so I think 
you've done an outstanding job of meeting the obligations, both 
as to the quality, the quantity, the timeliness of your work, 
and holding down the budget. So we do appreciate that.
    GAO, like the LOC and GPO, participated in the VSIP program 
and the buyout program as a means of reducing costs. Neither 
the LOC nor GPO is asking to restore the FTE levels that 
diminished as a result of the program. But in your request, you 
ask for $31.3 million in order to hire 305 permanent staff 
during fiscal year 2013. Doesn't that in some way defeat the 
purpose of the early buyout?
    Mr. Dodaro. I don't think so, Senator. If you recall, when 
we did the buyout, we asked people to leave by the end of 
fiscal year 2011. At that point, we didn't really know what our 
budget was going to be. It wasn't until December last year that 
we knew what our budget would be. Before then there was a range 
of marks between the House and the Senate.
    I was really concerned that we would have to lay off 
additional people and that we would have to furlough people, 
which would have affected our service to the Congress. So I was 
very much focused on maximizing our ability to provide quality 
services to the Congress, and in my view, that was a prudent 
decision to make.
    Now, that being said, many of those people would have been 
retiring anyway at some point in the next year or two. My 
request is to build the workforce for the future. I think we're 
going to be in this fiscal situation for an extended period of 
time, and we need to replenish our workforce and bring in 
additional staff. As I was saying, I use the analogy of a 
college football coach not having any sophomores or freshmen 
coming in and all the seniors are beginning to retire. You're 
looking at the juniors and you're saying, ``You better keep 
working really hard in order to provide those services.''
    I appreciate your comment about the quality of our work. We 
will never sacrifice quality at the GAO. It's too important to 
the decisionmaking in the Congress to do that. And so my 
request is to begin restoring that.
    Our funding was reduced 2 percent from fiscal year 2010 to 
fiscal year 2011, and then 6 percent from fiscal year 2011 to 
fiscal year 2012. As Ranking Member Senator Hoeven mentioned, I 
think, we've done our part.
    With our request, we would still be 5 percent less than the 
fiscal year 2010 level. I'm not asking for a lot. I think it's 
a prudent and wise investment for the future.
    Senator Nelson. Now, LOC also, as I said, participated in 
that VSIP program. And they've indicated they're undertaking a 
``right-sizing review'' before asking for additional staff in 
the future. In connection with trying to decide to replace your 
seniors with freshmen and sophomores, have you undertaken any 
particular review of those current staffing levels as you think 
about what your future needs are as well?

    <greek-l>GAO deg.CONTINUING CONGRESSIONAL DEMAND FOR GOVERNMENT 
                     ACCOUNTABILITY OFFICE SERVICES

    Mr. Dodaro. Basically, that all starts from what the demand 
is from the Congress in terms of the requests for services. As 
I mentioned, I've been meeting with the chair and ranking 
members of every standing committee of the Congress to make 
sure that we identify the priority needs.
    In recent times, we've been given additional 
responsibilities to audit, for example, the Federal Reserve and 
all their emergency lending facilities. We've also been given 
the responsibility to audit the new Consumer Financial 
Protection Bureau. We continue to receive more than 900 
requests a year from the Congress for our services.
    I believe that right now we can't meet all the demands from 
the Congress in a timely fashion. In order to meet the highest-
priority needs of the Congress, in my judgement we need a 
staffing level of 3,250 people. We're not there yet, but we 
have been there, and I think at that time we were meeting those 
needs in a timely manner.
    We have a workforce profile that we think matches the 
highest-priority needs of the Congress. We don't have a set 
production kind of issue that some of the other legislative 
branch agencies do. We get requests in every week, and they 
might relate to an emergency external situation or natural 
disaster that we have to respond to.
    We have to be flexible since our workload is ever-changing. 
I think at the requested level, we're right-sized to meet the 
demands of the Congress both now and in the future. We have a 
strategic plan that looks out 5 years that we've vetted with 
the Congress in terms of changes in the environment and what we 
think are going to be the critical issues confronting the 
Congress and the Nation. We need to be prepared to meet those 
needs.
    Senator Nelson. Thank you.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    I have a couple of questions. First would be, you were 
required to do zero-based budgeting and to go through that 
zero-based budgeting process. Did you find it helpful? And just 
describe whether you thought it was of value and if it helped 
you identify any savings.

    <greek-l>GAO deg.REDUCING COSTS THROUGH ZERO-BASED BUDGET REVIEW

    Mr. Dodaro. Yes, we went through the zero-based approach, 
and we did find it helpful in reducing costs in our 
administrative areas.
    As I mentioned in my opening statement, we've eliminated IT 
investments that were no longer necessary to meet our needs. We 
deferred a number of investments.
    But we were able to identify particular areas where we had 
contractor support in the administrative areas, Senator, and so 
we were able to reduce our contractor administrative support 
quite a bit. We reduced our security guard services, for 
example.
    We went through our budget line item by line item, and that 
exercise identified a number of areas for potential savings.
    We also worked with our union and got ideas from them, and 
we posted an open Web site for any GAO employee who had cost-
savings opportunities to make suggestions. You know, we're good 
at analyzing other people, so we tried to use that talent to 
help us. We received more than 600 suggestions from our 
employees.
    We closed our library completely, and now we're reusing 
that space to free up other space so that we can rent and bring 
in additional revenue.
    So the basic answer to your question is it was a good 
exercise. We found it helpful. It helped us identify savings. I 
think it was good.

             <greek-l>GAO deg.IMPACT OF A HOLD-EVEN BUDGET

    Senator Hoeven. If you were given a hold-even budget, how 
would you go about meeting that? What changes would you make?
    Mr. Dodaro. I'm sorry, Senator, I didn't hear the first----
    Senator Hoeven. If you were given a hold-even budget, if we 
came back to you and said that you had to hold even, you had--
--
    Mr. Dodaro. Oh, hold even. Okay.
    Senator Hoeven [continuing]. The exact same level for 
funding for fiscal year 2013 as for fiscal year 2012, how would 
you go about achieving that?
    Mr. Dodaro. What I would do is to reduce our planned hiring 
to achieve savings through the attrition. In other words, we'd 
probably cut planned hiring in half.
    We'd end up going down in an even level budget. Our 
staffing level would go down a little bit during the year.
    We also would reduce some of the incentive programs that we 
have, such as the student loan reimbursement program. We think 
that's a very good program for retention purposes. We've had it 
in place several years. Last year, we were unable to afford 
it--but, I'd like to restore it in part.
    Our plan was to restore it, but I'd restore it at a lower 
level if we were held flat. Then we'd look for other 
efficiencies to be gained.
    That's how I'd do it at the hold-even level. Basically we'd 
be able to continue to keep most of our workforce replenished, 
but not as much as we'd like. We'd end the year at a lower 
staffing level.
    As I was mentioning in my opening statement, we're at our 
lowest staffing level since 1935. I think if we add additional 
resources, there will be more returns to the Congress based on 
our recommendations, which could help the Congress find areas 
that they can cut or revenue enhancements.
    We've got a great track record, and I think that investment 
in GAO provides good returns.
    Senator Hoeven. You were given additional work because of 
Troubled Asset Relief Program (TARP), and that should've 
subsided to some extent. Just comment on that, in terms of 
whether you've been able to find some cost savings because of 
the work that you're no longer having to do associated with 
TARP.

             <greek-l>GAO deg.TROUBLED ASSET RELIEF PROGRAM

    Mr. Dodaro. Yes. The TARP law requires us to report every 
60 days, and we've continued to do that. We've reduced our work 
in that area from more than $5 million to less than $2 million 
in our budget for next year, which is reimbursed by the 
Department of the Treasury. As we reduce TARP-related work, the 
staff is available to work on other mandates and requests.
    There are several things that are continuing. One is the 
financial audit of the TARP financial statements.
    Second, the law requires us to be engaged until every 
dollar is repaid or recouped under the bank and investment 
programs, so until the investments in AIG and General Motors 
are divested by the Department of the Treasury, for example.
    Third, the Home Affordable Modification program has been 
extended to 2013. That's where they're trying to provide 
assistance to people in housing. The outlays continue under the 
TARP program in that area.
    There are also 370 banks in the capital purchase program 
that haven't repaid their TARP money yet. We just issued a 
report most recently on those banks. They're not making their 
dividend interest payments according to the program, so the 
Government is at risk of not getting all of its money back from 
those banks. Most of the large banks have repaid, as you know, 
but the smaller banks haven't.
    There's still activity under the TARP program. We've 
downsized our work as the TARP program has been downsized. We 
also received reimbursement for that TARP work from the 
Treasury Department, since the law that created TARP came 
outside of the normal appropriation cycle.
    Senator Hoeven. Of the total outlay from TARP, how much of 
that has been returned?
    Mr. Dodaro. I can provide that for the record.
    Senator Hoeven. Very good. Thank you.
    Mr. Dodaro. Sure.

   <greek-l>GAO deg.LEGISLATIVE BRANCH OPPORTUNITIES FOR COST SAVINGS

    Senator Nelson. Thank you.
    As you know, the subcommittee is hoping to realize some 
cost savings and overall efficiencies by converting all of the 
legislative branch agencies' financial management systems under 
a single entity, the LOC.
    The U.S. Capitol Police have successfully did this and has 
achieved significant cost savings as a result. We'll hear about 
that in the next hearing.
    I'm asking you a question now, in your role as GAO, do you 
think that a way we can gain additional savings is by having, 
for example, the Architect of the Capitol convert to the LOC's 
financial management system?
    Mr. Dodaro. We were asked to look into that issue a few 
years ago, and as I recall, we felt it was feasible to be able 
to do that, but there really needed to be additional work done 
to make sure that it was going be in the best interest of the 
Congress. There needed to be a cost-benefit study done, and the 
requirements completely outlined to be able to do that.
    I think there's an ability to cross-service. We outsource a 
lot of our financial management operations to the National 
Finance Center, for example. The Department of Transportation 
does some of our processing, as well. We don't try to do it all 
ourselves, and we go to those other service providers.
    There's no reason it can't happen, but I would say it needs 
careful study before implementation.
    Senator Nelson. But you're not aware of any study, current 
or recent, at least?
    Mr. Dodaro. I don't believe so, Senator. I mean, I'll go 
back and check and provide something for the record, if we have 
one.
    Now, feasible and actually making it happen are two 
different things.
    Senator Nelson. I understand that.
    Mr. Dodaro. I've seen enough financial system failures 
across the Government to know that it needs to be very 
carefully planned and managed.
    If there's something we could do to provide assistance in 
that area, I'd be happy to do that. But, we don't have current 
study on that.
    Senator Nelson. Have you thought about other areas where 
there may be some cost savings associated with the sharing of 
management programs and other similar programs?
    Mr. Dodaro. Within the legislative branch?
    Senator Nelson. Within the legislative branch, yes.
    Mr. Dodaro. To be honest, Senator, we've been so focused on 
driving our own costs down, I haven't thought about how we 
could do that. I think it's fruitful to do that. I will give 
that some thought and provide additional information to you 
about it.
    Senator Nelson. We want to use your good expertise in every 
way that we possibly can and at the same time, insist that you 
drive your costs down.
    Mr. Dodaro. Right. We're doing well on ourselves, and we'll 
try to help elsewhere.

             <greek-l>GAO deg.IMPACT OF A FLAT-LINE BUDGET

    Senator Nelson. I understand.
    I think Senator Hoeven did raise the question, what would 
you do if you were looking at a freeze, a flat-line budget? And 
without forecasting where things are going, it might be a good 
idea if you look internally to see what positions you will need 
based on your discussions with the chairmen of the different 
standing committees, in order to try to get an idea of what 
requests are going to be coming your way and a prioritization.
    I think that's always good to have, just in case. I'm not 
predicting that; I'm not suggesting that's what's going to 
happen. But advanced preparation probably would be well-
advised.
    Mr. Dodaro. Right.
    We're always thinking about how to allocate the resources 
to the different teams to support the committees. We do that on 
an ongoing basis.
    We're big believers of contingency planning, and so we'll 
be prepared to do that.
    If we go less than the hold-even level, we'll have to 
either furlough staff or do some reductions in force.
    Senator Nelson. Well, we understand that, and we appreciate 
what you've done to this point and know that you're committed 
to making certain that the services to the Congress continue.
    Thank you so much.
    Any further questions? Would you like to lead off with 
general printing, if you have some questions?

                 <greek-l>GPO deg.ZERO-BASED BUDGETING

    Senator Hoeven. Certainly can, Mr. Chairman.
    My first question, Ms. Vance-Cooks, would be the same 
question I asked Mr. Dodaro: If you would go through your zero-
based budgeting process; what you thought of it; whether you 
identified savings; and whether it was useful?
    Ms. Vance-Cooks. Thank you.
    The zero-based budgeting process was actually applied to 
the Salaries and Expense appropriation. And through that, we 
determined that we would see some savings in moving our 
depository library distribution platform from our headquarters 
to our Laurel warehouse.
    This resulted in almost $250,000 to $260,000 in savings, 
because the space rental is much cheaper there.
    Then when we looked at our Congressional Printing and 
Binding appropriation, we determined that it would be best to 
reduce it because we saw that, through the trends, printing is 
declining. It is decreasing.
    But because of the fact that printing is declining, we 
realized that at the same time there needs to be a balance, 
because of digital technology. Print on paper, the actual ink 
on paper, is declining. But at the same time, people expect us 
to have online digital technology, because everything pretty 
much is now turning online.
    Because of that, we realized that we needed to make sure 
that we invest in the future for our technological 
improvements. GPO's FDSys, as I mentioned earlier, is huge. It 
is an online system. It is free to the public.
    But in order for us to keep pace with technology, we must 
have our infrastructure strengthened, and that's where we 
decided to put our request in terms of a zero-based budget.

        <greek-l>GPO deg.NEED FOR THE GOVERNMENT PRINTING OFFICE

    Senator Hoeven. If you would compare and identify savings 
that we realize by using GPO versus basically just saying to 
each of the Members and the Senators, ``Okay, here's a budget. 
You take care of your own printing. Find it where you can.'' 
and trying to outsource or utilize other services, rather than 
through GPO.
    In other words, what I'm looking for is, why are we saving 
money doing it the way we do it?
    Ms. Vance-Cooks. That's a great question, Senator, and one 
that we're always asked.
    The question is, if all that congressional and Federal 
agency information is out there on the Internet, why do we have 
GPO? Well, Sir, the quick answer is that we're the ones who put 
all that information on the Internet to begin with. We're the 
ones who create the digital files that are put up online. 
Through those digital files, organizations like LOC pull that 
data or can use the files we send to them so that they can 
build THOMAS.
    Where conventional printing is concerned, it is much 
cheaper for us to print the documents than to download them and 
print them off of a laser printer.
    Let me give you an example using the Congressional Record. 
The Congressional Record, say, on the average, might have 150 
pages. We know that when we look at the cost, 70 percent of the 
cost of printing that Congressional Record is related to the 
prepress activities.
    Prepress simply means that we're taking all of those files, 
we're taking the information whatever way it comes to us, 
whether it's through paper or whether it's just in a digital 
file, we're the ones who assemble it. We're the ones who 
collate it. We're the ones who proof it. We paginate it. We 
reproof it to make sure it is correct.
    Once it's correct, it can then either go online or it can 
be printed.
    The additional 20 percent of that cost is principally for 
make-ready work, or setting up the press and the binding line. 
Then an additional 5 percent, Sir, is what is paid for the 
incremental cost of paper. We have determined through a lot of 
studies that if we print it, when it comes off the press after 
that very first very first page, it only cost 1.3 cents a page.
    But we also know, from a study that was conducted by 
Lexmark, that the minimum cost for printing from an office 
laser printer is almost 7 cents a page.
    So with the example that I just gave, when we print the 
Congressional Record, in this case, the cost would be less than 
$2. But if you printed it from a printer in one of your 
offices, it could be more than $10.
    So that's why we need GPO. Not to mention the fact that we 
work 24/7. We're in session when you are. When you leave the 
chamber, when the lights go out at night, we're still working, 
so that when you come back the next morning, that Congressional 
Record is online or it's in paper form, so that you can carry 
out the work of the legislative process. We print all of your 
congressional products. You need to have one source for all of 
that.
    And then, last, we're the ones that provide authentication 
for that information. You can get it anywhere off the Web if 
you want. But if you want to make sure that the information 
used in the legislative process is authentic, it needs to from 
the GPO, because it will have the digital seal of approval on 
the left-hand side of that page, which indicates, through the 
chain of custody, we took care of it and it has not been 
tampered with.

          <greek-l>GPO deg.REDUCTION IN CONGRESSIONAL PRINTING

    Senator Hoeven. Mr. Chairman, I do have a couple other 
questions. Would you like to go?
    Senator Nelson. No, go ahead.
    Senator Hoeven. Okay.
    Are we printing things that we should not be or that we 
don't need to be printing?
    Ms. Vance-Cooks. We asked that question last year when we 
issued our congressional survey. We started in May, and we 
actually sent the survey to all of the Member offices, where we 
asked them if they wanted to have the same number of copies of 
the Congressional Record, the Congressional Record Index, the 
Federal Register, and the Federal Register Index delivered to 
them. It was our way of being proactive and asking if the 
Congress needs all of the printed copies they were getting. As 
a result of that survey, we had an 18-percent reduction in the 
printed copies of the Congressional Record delivered to the 
Congress, the largest single annual reduction since we first 
put the Congressional Record online in 1994.
    So the short answer to your question, Sir, is that we are 
continually working with the Congress to determine whether or 
not you need those particular copies or whether or not you need 
those particular products.
    Senator Hoeven. Has GAO ever done an evaluation of whether 
or not we're printing things that we don't need to print and 
whether or not we could disseminate the same amount of 
information as effectively at lower costs without printing some 
of these reports?
    Ms. Vance-Cooks. Yes, Sir. We have had multiple studies by 
GAO. We've had studies by the Congressional Research Service 
(CRS). In fact, we are now in the process of having a study 
conducted by the National Academy of Public Administration 
through CRS to talk about just the very thing you're 
describing. Our introductory meeting was last week.
    And we have always had, through all of these studies, the 
same conclusion, which is that our business model is sound. It 
is effective. It is efficient. And it is cost saving.

           <greek-l>GPO deg.POTENTIAL FOR ADDITIONAL SAVINGS

    Senator Hoeven. Good for you. I think it's important that 
you continue to assess it, because technology changes, and what 
you're doing has to evolve with it. And so, I think it should 
be something ongoing. I'm glad to hear that you're doing that.
    Ms. Vance-Cooks. Thank you.
    Senator Hoeven. I'm going to ask you the same question I'm 
going to ask each one of you: If we have to find further 
savings, where would you go? Do you have to go to cutting 
staff? Would you go to equipment? Where would you go to find 
savings if you have to do that?
    Ms. Vance-Cooks. If we have to do this, and of course you 
know I'm doing the agony thing, but if we have to do it, it 
would come from the funds we're requesting for capital 
investment, which is in our revolving fund.
    The funds we're requesting for capital investments include 
two parts. One is for IT improvements and second would be for 
improvements to our building.
    IT investments are is very important for us in terms of 
FDSys, because we must make sure that everything is online and 
that it is online quickly and that it is accurate. We recognize 
that we have a number of IT infrastructure issues that must be 
addressed.
    Over the past few years, because of the delay in funding or 
not having enough funding, we've had to delay some of those 
projects. And because of the fact that we want to make sure 
that we're keeping pace with technology, that will suffer.
    On the other side, in terms of the facilities, our building 
is aging. We do need a new fire suppression system, and we do 
need to renovate our elevators. I am very concerned about those 
two issues, because of the fact that they pose health and 
safety issues.
    Senator Hoeven. Thank you.
    Ms. Vance-Cooks. Thank you.
    Oh, one other thing, Sir. I just received a note. I want to 
make sure to tell you that we only print what the Congress asks 
us.
    Senator Hoeven. I was pretty sure of that.
    Ms. Vance-Cooks. But I wanted to make sure that I gave it 
to you.
    Senator Hoeven. I was looking for ideas on maybe where we 
can go back to the Congress and say, ``You don't need to print 
that.''
    Ms. Vance-Cooks. That's right.
    Senator Nelson. Thank you.

<greek-l>GPO deg.FEWER FULL-TIME EQUIVALENTS AT THE GOVERNMENT PRINTING 
                                 OFFICE

    In your estimate, it's by the end of fiscal year 2013, 
you'll have 250 fewer FTEs than you were operating with in 
fiscal year 2011. Is this a temporary reduction? Or is this a 
1-year reduction, and next year you will be coming back asking 
for 100 to replace the 250 that you are down right now? Just 
trying to figure out what the trend line is on staffing that 
you're looking at.
    Ms. Vance-Cooks. Thank you. Actually, we're already there. 
We've lost 250 people through the buyout, and we lost another 
65 through regular separations. So we're down about 312 
positions.
    We think that we will probably stay around that level. And 
the reason is because we're changing the skill level of the 
employees. Any selective hiring that we might do to replace 
some of the open positions are more along the lines of being 
technical.
    Then on top of that, we are asking and making sure that we 
try to introduce as much technology as possible to take the 
place of employees. So I think that will be around the same.
    Senator Nelson. Well, it's obvious that you're an agency in 
transition, and will continue to be in transition for some 
period of time. I commend the fact that you're making 
adjustments with that in mind.
    You're stuck with paper at the present time. You'll be 
stuck with it for a long time. But you're also meeting your 
requirements on the technological side. That's important.
    And I note that you said when our lights go off, your 
lights are still on. I have a feeling that Mr. Dodaro and Dr. 
Elmendorf still have their lights on, maybe even a little later 
into the night as well, with all the requests we keep asking 
for. I'm sure they feel the same way.
    Well, thank you very much.
    I will go to CBO for a second here with my time.
    I want to commend you and your staff, Dr. Elmendorf, as 
well, in producing your budget request. I know it's a great 
pain, with all the requests that you're getting, and also 
recognizing that the spike in budgeting for salary and FTEs 
back a couple of years ago was temporary, and that you've taken 
the initiative to reduce staffing accordingly at the present 
time.
    For tax analysis, for example, it may be one of the areas 
of increased congressional requests coming forward. With your 
reduced staffing, are you in a position where you think you 
have the right staff to deal with the tax issues that are 
likely to come up in this next year? Maybe not action, but a 
lot of talk about it, which means there'll be a lot of 
questions that will be thrown your way.

                       <greek-l>CBO deg.STAFFING

    Dr. Elmendorf. So, Mr. Chairman, we'll do the best we can 
with the staffing we have. But I would be much more comfortable 
about our capacity to meet the congressional demands if we were 
back at the staffing we had a few years ago. I mean, we do 
recognize, given the current appropriations discussions in the 
Congress, that we're not going back to that level of funding. 
But the demands have not really eased up. The demands weren't 
temporary.
    So we're trying to make sure that we are allocating our 
staff in the areas of greatest congressional interest. The 
point that Senator Hoeven made about the importance of setting 
priorities, of deciding what really has to happen, is one that 
we're going through very intensively.
    So we hope through that process to meet the highest-
priority congressional demands. But as you know from your own 
experience with us, Senator, we can't get to anybody's requests 
as quickly as they would like and as quickly as they deserve, 
given the nature of the budget and economic problems that the 
country faces.
    Senator Nelson. Without saying anything negative about any 
of our colleagues, some of them may have unusual expectations 
about how fast things get turned around under the best of 
circumstances. And only you are the ones that have to tell them 
that their requests and expectations are unusual. Neither of us 
have to do that. So I recognize that challenge.
    Now, I think you've also spoken to our colleagues and 
committee chairs about what they're expecting to try to assess 
the demand that you're going to face not only currently, but in 
the future. Has that been helpful in trying to establish some 
level of priority on the kind of demands you're going to get?
    Dr. Elmendorf. I think it certainly has been helpful. We 
tried to stay in close contact with all the committees with 
whom we do work.
    Of course, the members of the subcommittee and their staff 
can't exactly foresee what will come ahead either. But the 
conversations have been very helpful. What I fear is that when 
we have conversations with individual committees about their 
needs and our staffing constraints, I fear that they mostly 
believe that the shortfall in staffing will come out of 
somebody else's requests, not theirs. And we keep trying to say 
that there'll have to be some reduction in what we can do for 
the wide range of committees and for the leadership in the 
House and the Senate, as well.
    So we're sending that message, I think, pretty clearly. And 
we're learning from these conversations what it is that the 
committees want us most to do. But that doesn't, as you know, 
it doesn't eliminate the tensions.

          <greek-l>CBO deg.INFOMATION TECHNOLOGY REQUIREMENTS

    Senator Nelson. I noticed in the budget that you are going 
to IT replacement, and that you proposed to fund IT 
expenditures at around 40 percent less than in the current 
year. In the budget proposals for the past several years, 
you've also had reductions in IT development and in support. 
What steps have you taken in the past to reduce those IT costs? 
What additional steps are you probably looking at right now to 
continue to reduce those costs, because, obviously, there has 
to be some give for that reduction to be in your budget?
    Dr. Elmendorf. Right. So we were able, in the preceding few 
years, to replace a fair amount of our IT equipment. We put in 
a new network at CBO and other important upgrades.
    Senator Nelson. You were getting faster results, as I 
recall.
    Dr. Elmendorf. And in fact, we actually, literally, went 
out and bought some faster computers to turn around certain 
estimates more quickly.
    What we're doing right now really is just not replacing 
things. And that's okay for a little while, but isn't okay on a 
sustained basis.
    The same issue is true in our purchases of data. One cannot 
buy a year's worth of data or maybe 2 years' worth of data. But 
eventually we'll be giving you analysis that, if we proceed on 
that course indefinitely, give you analysis based on outdated 
information--we can't let that happen.
    So what we think we're going to continue to do is to 
restrain our staffing levels to bring down staffing, because we 
can't end up in a situation where we have people without the 
support they need to do their jobs effectively.

                   <greek-l>CBO deg.NONPAY REDUCTIONS

    Senator Nelson. Are you at the brink of deferral efficiency 
right now? In other words, can you keep deferring? Or have you 
reached the maximum level of deferrals, where from this point 
forward, it will adversely impact your ability to respond back?
    Dr. Elmendorf. So, I think any further reductions in our 
nonpay spending relative to what we have requested for next 
year would seriously affect our ability to provide the analysis 
that you need. And I think, moreover, even the level we're 
proposing in fiscal year 2013, we can't do again in fiscal year 
2014.
    And as we think about our purchase of data and IT 
equipment, and think about our staffing very crucially, we're 
looking not just at what you and your colleagues would do in 
fiscal year 2013, but where that will go in fiscal year 2014.
    And I think in fiscal year 2014, we will need to spend more 
on these nonpay areas. As you know, they're only about 7 
percent in our budget for next year. And that will have to go 
up in dollar terms in fiscal year 2014 in order to provide the 
support that people need. And what that means is that, unless 
our budget goes up in fiscal year 2014, then our staffing will 
go down further.
    Senator Nelson. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Mr. Elmendorf, so if you have to find additional savings, 
you would go where? The IT budget? Is that what you're saying?

                  <greek-l>CBO deg.STAFFING REDUCTION

    Dr. Elmendorf. No. So if you held our budget flat in fiscal 
year 2013, with the level in fiscal year 2012, we would reduce 
staffing further----
    Senator Hoeven. Staffing?
    Dr. Elmendorf [continuing]. Than we proposed in the budget, 
because I think the nonpay complements have been squeezed as 
far as they can be squeezed in order to have the staff that we 
do have being effective at their jobs.
    Senator Hoeven. So if you had to reduce funding further, it 
would be a staff reduction?
    Dr. Elmendorf. It would be staffing. So if you held the 
budget flat rather than the 2-percent increase we're asking 
for, that would mean about five fewer FTEs for the year as a 
whole. Because we're starting at a level more than what we 
would be aiming for an average over the year, we would need to 
finish the year with fewer FTEs. So if you held the budget 
flat, we might aim to finish next year with about 225 FTEs 
rather than 235 FTEs.

                  <greek-l>CBO deg.IMPACT ON SERVICES

    Senator Hoeven. Okay, and then talk about the impact that 
would have on the services you provide.
    Dr. Elmendorf. So if you look at particular areas, and 
again there are a lot of areas we're asked to cover with fairly 
specialized expertise in different ones, so we have, for 
example, three analysts who work on agricultural issues. And 
they work around the clock, especially last fall when the 
Appropriations Committee was--when the Agricultural Committees 
were looking for ways to reduce the costs of agricultural 
programs.
    Senator Hoeven. I remember.
    Dr. Elmendorf. But if one of those people left or retired, 
we wouldn't, I think, replace him. And then we'd have two 
analysts in an area rather than three.
    We have a significant team of people working on national 
security issues. The budget consequences of different national 
security choices seems to me as prominent a concern of the 
Congress today as it has been. But if our staffing goes down, 
we will have to reduce the number of people we have working on 
doing estimates of the budgetary consequences of different 
national security choices.
    One of the areas that we are protecting as we think about 
different levels, and we are working very hard at how we would 
structure the allocation of people for different levels of 
total staffing, one area that I think we'll protect in that 
process is people working on health programs, because that is 
an area where the interest of the Congress really has surged 
over the past few years and has not abated.
    Although a large piece of legislation was enacted, as you 
know, the congressional interest in either reversing that 
action or in building upon it is extremely high. Partly because 
of that law, the work we do in an area is now even more 
complicated than ever. So that's an area where we need to 
maintain the staffing that we have, even if our total staffing 
is cut back.
    But that means, then, more severe cuts to a whole set of 
areas in which CBO has traditionally and continues to play a 
very important role in serving the Congress.
    Senator Hoeven. So it would translate into longer timelines 
to respond to requests for CBO scoring, studies, and so forth? 
Primarily, what the Congress would see, is a longer timeline in 
terms of getting that work done?
    Dr. Elmendorf. Longer timeline, and I think I would say 
fewer variations. So I think in many cases, the timelines are 
fairly fixed by the congressional process. But what would 
happen is that we'd be able to do less work with committees, in 
particular, as they are preparing legislation for markup in 
committee.
    So, we do about 600 formal cost estimates a year. This is 
the estimate we prepare after committees have reported out 
legislation. But we do thousands of informal estimates as 
committees are discussing what legislation to send out of 
committee.
    And those are often variations on different themes; and we 
would have to do fewer of those. In the case of the studies 
that we write and other analyses that do not have fixed timing, 
then, yes, we would just stretch out the scheduling. And it 
would take longer to get answers from us.

               <greek-l>CBO deg.CONGRESSIONAL ASSISTANCE

    Senator Hoeven. Is there something the Congress could do 
that you think would be beneficial in terms of assisting you in 
what you do and how you do it to make it more efficient, more 
cost-effective? Probably in your case, because you're primarily 
people, more time-effective? And so, is there something in how 
we do this and how we request scoring that you think that you 
would recommend?
    Dr. Elmendorf. Well, so as we say when we talk to 
committees, more advanced warning for us of what issues are 
coming up and what alternative policies are being considered 
helps us do a more effective job. And I think most of the 
committees understand that and try to give us as much of a head 
start as they can.
    I think beyond that the part of what makes our job hard is 
that the Congress tries to enact policies of different sorts, 
but does not, and then comes back around again later and tries 
one more time. So in the course of last year's discussions 
about fundamental changes in fiscal policy, we did an 
unbelievable amount of work that never saw the light of day and 
never made it into a formal cost-estimate, because legislation 
never really came to committees or to the floor of the Senate 
or the House for much of the work that we did.
    So part of what takes time for us is that the Congress is 
wrestling with these issues. But that involves a certain amount 
of going back to policies we've estimated before and estimate 
them again with slight changes or against a new set of baseline 
economic and technical assumptions.
    So if there were a more linear path for the Congress to get 
to the legislation it ultimately would enact, that would help 
us. But I don't think that's--that's not an operational 
suggestion. I think these are hard issues, of course. That's 
why the Congress is wrestling with them; and I don't have a lot 
of operational ideas on how to reduce that workload.
    Again, I think we feel very bad when we have to say no, we 
can't look at this alternative policy that somebody has in 
mind, because it's a good thing for the Congress to be 
considering alternatives and to be trying to tackle the budget 
and economic issues that we face. So I can't suggest that you 
ask fewer questions.
    And what worries me is our ability to provide the kinds of 
accurate and timely answers that you need.

                     <greek-l>CBO deg.WORK PROCESS

    Senator Hoeven. There's the process of what you do and 
there's the substance of what you do. You're talking about 
improving the process. That is something you have to evaluate 
all the time. I understand very well the point you're making.
    It's a good one. A lot of this work doesn't necessarily 
translate into policy, yet it's the information people need to 
have in order to make decisions about what might be effective 
policy.
    Substantively, I'm looking to see if there's any 
recommendations. I understand that that's a function of the 
Congress and the type of information they want, and how they 
want that provided, in a sense. But you being on the inside 
looking at how this machine works, seeing what your output is, 
do you have any recommendations on the substance of what you 
do? Where do we have you spending a lot of time but maybe not 
creating a lot of illumination?
    I'm just looking for any of those kinds of recommendations.
    Dr. Elmendorf. So I think, in some cases, Senator, there is 
a request for us to look at more variations on different 
policies than reveal new information to the Congress. So 
sometimes variations reveal important aspects of how the world 
works or how Government policy can affect the world. Other 
times, I think, those variations don't reveal interesting 
information about how the world works or how Government policy 
can matter.
    And I think sometimes when we're asked to do a lot of work 
on specific aspects of policies, that sometimes that goes 
beyond the point of diminishing returns.
    But it is difficult--but that's a concern that I have, and 
I can have it after the fact. It's much harder to know when one 
begins a process, what variations will be interesting and 
informative and what won't be.
    And it's not our place to tell the Congress what policies 
it should be exploring. So it's very difficult for us to try to 
guide that sort of process as it unfolds.
    And even if after the fact it turns out that we went down 
some roads that weren't very helpful, it's much harder for us 
to know that or to say that at the beginning of the road.
    Senator Hoeven. Okay. I'm just looking for any 
recommendations you have that might enable you to do your job 
more cost and time effectively. Certainly, we would want you to 
bring those forward.
    I think, de facto, some of the things you're talking about, 
arguably, sort themselves out on a resource basis.
    In other words, if you have fewer people, you will do fewer 
scenarios, because you will have no choice. And I think that's 
what you're saying. I understand that.
    Dr. Elmendorf. Yes.
    Senator Hoeven. So those areas you do, do, that's what I'm 
saying, we want to be as efficacious as possible.
    Dr. Elmendorf. Yes, and I think that's right. And we do 
try, when we can foresee the consequences, we do try to advise 
committee staff that we should not look at this path, because 
this will look just like the other one. They should have us 
look over here. And when we can see that coming, we do try to 
do that.
    But again, you should understand, very rarely do I get 
phone calls from the chairmen or ranking members of committees 
saying, well, you showed me too many options.
    Senator Hoeven. No, I understand.
    Dr. Elmendorf. And I get a lot of phone calls.
    Senator Hoeven. Yes, I absolutely understand that part.
    And it should be. I mean, people have the right to ask for 
the information if they want certain information. I understand 
that perfectly. Just we're making sure that if there are ways 
for your team to work more effectively, and we can help there, 
we do it, because, de facto, you and I both know there's going 
to be a limit on how many people you're going to have, and 
that's going to limit the service that you can provide.
    Dr. Elmendorf. Yes. I understand.
    Senator Hoeven. Thank you.
    No further questions, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTION

    Senator Nelson. Thank you, Senator Hoeven.
    And I want to thank the witnesses and encourage Dr. 
Elmendorf to continue to work toward the illumination of the 
Congress.
    Dr. Elmendorf. We will, Mr. Chairman. Thank you.
    [The following question was not asked at the hearing, but 
was submitted to the Office for response subsequent to the 
hearing:]
                  Question Submitted to Gene L. Dodaro
               Question Submitted by Senator John Hoeven
    Question. Of the total outlay for the Troubled Asset Relief Program 
(TARP), how much of that has been returned?''
    Answer. As reported in the Federal Government's financial 
statements, as of September 30, 2011, TARP had disbursed a total of 
$413.4 billion and $316.1 billion had been returned including $276.9 
billion in repayments and $39.2 billion in income from dividends, 
interest, and warrants. Since that time, the Department of the Treasury 
has provided updated information. As of April 4, 2012, TARP had 
disbursed a total of $414.56 billion and $333.5 billion had been 
returned including $392.64 billion in repayments and $40.86 in income 
from dividends, interest, and warrants.

                          SUBCOMMITTEE RECESS

    Senator Nelson. The subcommittee will stand in recess until 
2:30 p.m. on March 22, 2012, when we will meet in this room to 
take testimony on the fiscal year 2013 budget request of the 
Secretary of the Senate, the Senate Sergeant at Arms, and the 
United States Capitol Police.
    We stand recessed. Thank you.
    [Whereupon, at 3:50 p.m., Thursday, March 15, the hearing 
was concluded, and the subcommittee recessed until 2:30 p.m. on 
March 22, 2012.]

</pre></body></html>
